<html>
<title> - XINJIANG</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                                XINJIANG

=======================================================================

                               EXCERPTED

                                from the

                           2011 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




         Available via the World Wide Web: http://www.cecc.gov




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-186 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



House                                Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     JEFF MERKLEY, Oregon
                                     SUSAN COLLINS, Maine
                                     JAMES RISCH, Idaho

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)





                                Xinjiang

                                Findings

        <bullet> Human rights conditions in the Xinjiang Uyghur 
        Autonomous Region (XUAR) remained poor in the 
        Commission's 2011 reporting year. Following 
        demonstrations and riots in the region in July 2009, 
        authorities maintained repressive security policies 
        that targeted peaceful dissent, human rights advocacy, 
        and independent expressions of cultural and religious 
        identity, especially among Uyghurs, as threats to the 
        region's stability. Authorities bolstered security in 
        the region in summer 2011, following incidents they 
        described as terrorist attacks and in advance of an 
        expanded trade expo.
        <bullet> The Chinese government continued to obscure 
        information about people tried in connection to the 
        July 2009 demonstrations and riots, while overseas 
        media reported on cases of people imprisoned for 
        peaceful speech and assembly during that time. The 
        number of trials completed in the XUAR for crimes of 
        endangering state security--a category of criminal 
        offenses that authorities in China have used to punish 
        citizen activism and dissent--decreased in 2010 
        compared to 2009 figures but remained higher than in 
        years before 2009.
        <bullet> Implementation of a series of central 
        government-led development initiatives, first announced 
        at a May 2010 meeting known as the Xinjiang Work Forum, 
        spurred an intensification of longstanding policies--
        including Mandarin-language schooling, herder 
        resettlement, and urban development projects--that have 
        undermined the rights of Uyghurs and other non-Han 
        groups to maintain their cultures, languages, and 
        livelihoods.
        <bullet> Authorities in the XUAR enforced tight 
        controls over religion, especially Islam, and 
        maintained restrictions on religious practice that are 
        harsher than curbs articulated in national regulations. 
        Officials integrated curbs over Islam into security 
        campaigns and monitored mosques, placed restrictions on 
        the observance of the holiday of Ramadan, continued 
        campaigns to prevent Muslim men from wearing beards and 
        women from wearing veils, and targeted ``illegal'' 
        religious materials in censorship campaigns.
        <bullet> Discriminatory job hiring practices against 
        Uyghurs and other non-Han groups continued in both the 
        government and private sectors. Authorities also 
        continued to send rural non-Han men and women to jobs 
        elsewhere in China, through programs reportedly marked, 
        in some cases, by coercion to participate and 
        exploitative working conditions. Education authorities 
        in the XUAR continued to require students to pick 
        cotton and engage in other forms of labor in work-study 
        programs that exceeded permitted parameters for student 
        labor under Chinese law and international standards for 
        worker rights.
        <bullet> National and XUAR government officials 
        continued to implement projects that have undermined 
        Uyghurs' ability to protect their cultural heritage. 
        Authorities continued steps to demolish and 
        ``reconstruct'' the Old City section of Kashgar and 
        relocate residents, a five-year project launched in 
        2009 that has drawn opposition from Uyghur residents 
        and other observers for requiring the resettlement of 
        residents and for undermining cultural heritage 
        protection. The Chinese government also continued to 
        politicize the protection of Uyghurs' intangible 
        cultural heritage, nominating a Uyghur social and 
        artistic gathering for increased state and 
        international protection, but defining this form of 
        intangible heritage narrowly to exclude variations that 
        contain religious elements and social activism.
        <bullet> Information remained limited on the status of 
        asylum seekers forcibly returned to China from Cambodia 
        in December 2009, before the UN High Commissioner for 
        Refugees (UNHCR) could make a determination of the 
        asylum seekers' refugee status. In May 2011, Chinese 
        security officials, in cooperation with authorities in 
        Kazakhstan, forcibly returned a Uyghur man--initially 
        recognized as a refugee, though the UNHCR later revoked 
        this status--from Kazakhstan to China. In August, 
        authorities in Thailand turned over a Uyghur man to 
        Chinese authorities--who are presumed to have returned 
        him to China--while authorities in Pakistan and 
        Malaysia forcibly returned Uyghurs to China in the same 
        month. The forced returns are among several documented 
        cases of forced deportation in recent years, 
        highlighting the ongoing risks of ``refoulement'' and 
        torture that Uyghur refugees, asylum seekers, and 
        migrants have faced in neighboring countries under the 
        sway of China's influence and its disregard for 
        international law.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support legislation that expands U.S. Government 
        resources for raising awareness of human rights 
        conditions in the Xinjiang Uyghur Autonomous Region 
        (XUAR), for protecting Uyghur culture, and for 
        increasing avenues for Uyghurs to protect their human 
        rights.
        <all> Raise concern about human rights conditions in 
        the XUAR to Chinese officials and condemn the use of 
        security campaigns to suppress human rights. Call on 
        the Chinese government to release people imprisoned for 
        advocating for their rights or for their personal 
        connection to rights advocates, including: Gheyret 
        Niyaz (sentenced in 2010 to 15 years in prison for 
        ``leaking state secrets'' after giving interviews to 
        foreign media); Nurmemet Yasin (sentenced in 2005 to 10 
        years in prison for allegedly ``inciting racial hatred 
        or discrimination'' or ``inciting separatism'' after 
        writing a short story); Alim and Ablikim Abdureyim 
        (adult children of activist Rebiya Kadeer, sentenced in 
        2006 and 2007 to 7 and 9 years in prison, respectively, 
        for alleged economic and ``separatist'' crimes), as 
        well as other prisoners mentioned in this report and in 
        the Commission's Political Prisoner Database.
        <all> Call on the Chinese government to provide details 
        about each person detained, charged, tried, or 
        sentenced in connection to demonstrations and riots in 
        the XUAR in July 2009, including each person's name, 
        the charges (if any) against each person, the name and 
        location of the prosecuting office (i.e., 
        procuratorate), the court handling each case, and the 
        name of each facility where a person is detained or 
        imprisoned. Call on the Chinese government to encourage 
        people who have been wrongfully detained to file for 
        compensation. Call on the Chinese government to ensure 
        people suspected of crimes in connection to events in 
        July 2009 are able to hire a lawyer and exercise their 
        right to employ legal defense in accordance with 
        Articles 33 and 96 of the PRC Criminal Procedure Law 
        and to ensure suspects can employ legal defense of 
        their own choosing. Call on the Chinese government to 
        announce the judgments in all trials connected to 
        events in July 2009, as required under Article 163 of 
        the PRC Criminal Procedure Law. Call on the government 
        to allow independent experts to conduct independent 
        examinations into the demonstrations and riots and to 
        allow them access to the trials connected to these 
        events.
        <all> Support non-governmental organizations that 
        address human rights issues in the XUAR to enable them 
        to continue to gather information on conditions in the 
        region and develop programs to help Uyghurs increase 
        their capacity to preserve their rights and protect 
        their culture, language, and heritage. Provide support 
        for media outlets devoted to broadcasting news to the 
        XUAR and gathering news from the region to expand their 
        capacity to report on the region and provide uncensored 
        information to XUAR residents. Provide support for 
        libraries that hold Uyghur-language collections to 
        increase their capacity to collect and preserve books 
        and journals from the XUAR. Support organizations that 
        can research and take steps to safeguard tangible and 
        intangible cultural heritage in the XUAR.
        <all> Call on the Chinese government to support 
        development policies in the XUAR that promote the broad 
        protection of XUAR residents' rights and allow the XUAR 
        government to exercise its powers of regional autonomy 
        in making development decisions. Call on central and 
        XUAR authorities to ensure equitable development that 
        promotes not only economic growth but also respects the 
        broad civil and political rights of XUAR residents and 
        engages these communities in participatory 
        decisionmaking. Ensure development projects take into 
        account the particular needs and input of non-Han 
        ethnic groups, who have faced unique challenges 
        protecting their rights in the face of top-down 
        development policies and who have not been full 
        beneficiaries of economic growth in the region. Call on 
        authorities to ensure that residents have input into 
        resettlement initiatives and receive adequate 
        compensation. Call on authorities to take measures to 
        safeguard the rights of herders to preserve their 
        cultures and livelihoods.
        <all> Call on the Chinese government to ensure 
        government and private employers abide by legal 
        provisions barring discrimination based on ethnicity 
        and cease job recruiting practices that reserve 
        positions exclusively for Han Chinese. Call on 
        authorities to monitor compliance with local directives 
        promoting job opportunities for non-Han groups, who 
        continue to face discrimination in the job market. 
        Support organizations that can provide technical 
        assistance in monitoring compliance with labor laws and 
        in bringing suits challenging discriminatory practices, 
        as provided for under Article 62 of the PRC Employment 
        Promotion Law. Call on Chinese authorities to 
        investigate reports of coercion and exploitative 
        working conditions within labor transfer programs that 
        send rural non-Han men and women to jobs in the 
        interior of China. Call on Chinese authorities to 
        investigate work-study programs within the XUAR and 
        ensure they do not exceed permitted parameters for 
        student labor under Chinese law and international 
        standards for worker rights.
        <all> Call on the Chinese government to provide 
        information on the whereabouts and current legal status 
        of Uyghur asylum seekers forcibly returned from 
        Cambodia in December 2009 and Uyghurs forcibly returned 
        to China from Kazakhstan, Thailand, Pakistan, and 
        Malaysia in 2011. Raise the issue of Uyghur refugees 
        and asylum seekers with Chinese officials and with 
        officials from international refugee agencies and from 
        transit or destination countries for Uyghur refugees. 
        Call on Chinese officials and officials from transit or 
        destination countries to respect the asylum seeker and 
        refugee designations of the UN High Commissioner for 
        Refugees and the refugee and citizenship designations 
        of other countries. Call on transit and destination 
        countries for Uyghur asylum seekers, refugees, and 
        migrants to abide by requirements in the 1951 
        Convention Relating to the Status of Refugees and the 
        Convention against Torture on ``refoulement.''

                              Introduction

    Human rights conditions in the Xinjiang Uyghur Autonomous 
Region (XUAR) remained poor during the Commission's 2011 
reporting year. Following demonstrations and riots in the 
region in July 2009, authorities maintained repressive security 
policies that targeted peaceful dissent, human rights advocacy, 
and independent expressions of cultural and religious identity, 
especially among Uyghurs, as threats to the region's stability. 
Authorities bolstered security in the region in summer 2011 
following incidents they described as terrorist attacks and in 
advance of an expanded trade expo. The government continued to 
obscure information about people tried in connection to the 
July 2009 demonstrations and riots, while overseas media 
reported on cases of people imprisoned for peaceful speech and 
assembly during that time. Implementation of a series of 
central government-led development initiatives, first announced 
at a May 2010 meeting known as the Xinjiang Work Forum, spurred 
an intensification of longstanding policies--including 
Mandarin-language schooling, herder resettlement, and urban 
development projects--that have undermined the rights of 
Uyghurs and other non-Han groups to maintain their cultures, 
languages, and livelihoods. Authorities enforced tight controls 
over religion, especially Islam, and maintained restrictions on 
religious practice that are harsher than curbs articulated in 
national regulations. Discriminatory job hiring practices 
against Uyghurs and other non-Han groups, who comprise roughly 
60 percent of the XUAR population, continued in both the 
government and private sectors. The Chinese government 
maintained its disregard of international legal protections for 
refugees, asylum seekers, and migrants, and information on the 
status of Uyghurs forcibly returned to China in recent years, 
including multiple cases in 2011, remained limited.

                           Security Measures

    Authorities in the Xinjiang Uyghur Autonomous Region (XUAR) 
continued to use security measures to bolster political and 
social controls in the region. At the same time XUAR 
authorities reiterated the Xinjiang Work Forum's call for 
``developments by leaps and bounds'' and ``long-term 
stability'' in the XUAR, high-level officials also continued to 
emphasize ``placing stability above all else'' and ``striking 
hard'' against the ``three forces'' of terrorism, separatism, 
and religious extremism.\1\ Authorities continued to apply the 
term ``three forces'' to include peaceful dissent, human rights 
advocacy, and independent expressions of cultural and religious 
identity, especially among Uyghurs.\2\ XUAR Communist Party 
Secretary Zhang Chunxian emphasized in a December 2010 meeting 
that stability was the ``prerequisite'' and ``guarantee'' for 
the region's development.\3\ In addition, officials at the 
meeting affirmed, as the region's guiding principle for 
stability work, central authorities' ``correct assessment'' 
that ``ethnic separatism'' is the main threat to the region's 
stability.\4\ The government and media also reported that 
terrorist incidents took place in the region in the past year, 
including incidents in Hoten and Kashgar districts 
(prefectures) in July.\5\ As in the past, authorities provided 
limited information on the events and continued to enforce 
restrictions on reporting that hindered efforts to investigate 
the incidents.\6\ The government reported the July incident in 
Hoten municipality, Hoten district, as a premeditated terrorist 
attack on a police station.\7\ Some people in Hoten 
contradicted the government's account, and some sources 
reported that the incident involved authorities suppressing a 
protest that started at another location.\8\
    In line with directives to guard against stated terrorist 
threats and other stability concerns, the regional government 
and lower level governments within the XUAR reported 
implementing a range of security measures. The XUAR Public 
Security Department launched a 100-day ``strike hard'' campaign 
in December 2010 that focused on preventing ``serious violent 
crimes'' and ``large-scale mass incidents'' and called on 
localities to expand the scope of round-the-clock street 
patrols.\9\ In February, the regional government established a 
leading group on state security to ``mobilize'' society to 
``wage battle against various acts that harm state security and 
social and political stability.'' \10\ Authorities heightened 
security following reported terrorist attacks in July and 
surrounding an inaugural ``China-Eurasia Expo'' in 
September.\11\ The XUAR Public Security Department launched a 
two-month ``strike hard'' anti-terrorism campaign in August, 
pledging an increased security presence and including among its 
targets ``illegal religious activities,'' ``religious 
extremism,'' and ``illegal propaganda materials.'' \12\ In the 
XUAR capital of Urumqi (population approximately 2.6 
million),\13\ state-controlled media reported in January 2011 
that authorities had added almost 17,000 security cameras in 
the previous year to existing surveillance cameras in the 
city.\14\ Authorities had announced plans in early 2010 to 
increase the number of 24-hour surveillance cameras in the city 
to 60,000 by that year's end,\15\ and the 17,000-camera 
addition appeared to exceed this target.\16\ After Urumqi 
authorities strengthened controls over the rental housing 
market in late 2009--steps they connected to the alleged 
involvement of Uyghur migrants to the city in the July 2009 
demonstrations and riots \17\--authorities launched a three-
month campaign in late 2010 to strengthen controls over 
migrants and housing rentals.\18\ In Shuimogou district, Urumqi 
city, authorities used the campaign to ``strike hard'' against 
``illegal religious activities'' and other ``three forces'' 
crimes.\19\ Districts throughout Urumqi reportedly have used a 
range of technologies and methods to monitor migrants and 
rental housing, including computerized entry cards in rental 
housing keyed to data about the user, and sealed-off 
neighborhoods with security checkpoints for vehicles and 
pedestrians.\20\ XUAR residents reported that authorities have 
maintained restrictions on passport applications from Uyghurs 
and members of other non-Han groups since the July 2009 
demonstrations and riots.\21\
    Uyghurs from the XUAR also faced scrutiny elsewhere in 
China. As part of a campaign to promote a ``peaceful Asian 
Games'' launched in advance of the November 2010 event hosted 
in Guangdong province, authorities in Zhongshan city, 
Guangdong, called for continuing work to resolve 
``contradictions'' and disputes in areas where ``Xinjiang 
Uyghurs'' ``assemble, live, or are active.'' \22\ A December 
2010 directive on promoting stability from the Changde city, 
Hunan province, ethnic and religious affairs bureau called for 
``launching investigation and research into the situation for 
managing Xinjiang Uyghurs.'' \23\

                         Ideological Campaigns

    Authorities within the XUAR continued to promote 
ideological and ``ethnic unity'' campaigns throughout the 
region and maintained a regional regulation on promoting ethnic 
unity that entered into force in February 2010. Both the 
regulation and related campaigns have promoted state-defined 
notions of ethnic unity and ethnic relations and have sought to 
quell or punish forms of speech deemed ``not beneficial'' to 
government and Party objectives.\24\ Authorities continued a 
``patriotic education'' campaign, launched in June 2010, titled 
``Ardently Loving the Great Motherland, Building a Glorious 
Homeland.'' A description from the state-run Xinhua news agency 
described the campaign as ``a fundamental project for promoting 
Xinjiang's development by leaps and bounds and long-term 
stability.'' \25\ Authorities reportedly organized 13,300 teams 
made up of 57,600 staff and held 91,000 lectures for a total of 
11 million listeners, thereby ``conveying the voice of the 
Party and government to people at the grassroots level,'' 
according to the head of the Xinjiang Academy of Social 
Sciences.\26\ Venues for the campaign included mosques, 
schools, and individual households.\27\

                          Xinjiang Work Forum

    In the past reporting year, central and XUAR government and 
Communist Party offices continued to implement a series of 
initiatives first announced at the May 2010 Xinjiang Work 
Forum, convened in Beijing by top central government and Party 
leaders. The inaugural forum set government and Party 
objectives for the XUAR's economic and political development, 
intensifying a trend of top-down initiatives that prioritize 
state economic and political goals over the promotion of 
regional autonomy and broader protection of XUAR residents' 
rights.\28\ Throughout the year, authorities emphasized the 
political importance of fulfilling the work forum's aims of 
``developments by leaps and bounds'' and ``long-term 
stability.'' \29\ As authorities renewed ``counterpart 
support'' programs that bring personnel and funding to the XUAR 
from other provincial-level areas, they stressed dispatching 
``politically steadfast'' cadres to serve development projects 
in the XUAR.'' \30\
    Implementation of the initiatives announced at the May 2010 
forum and its immediate aftermath brought an intensification of 
longstanding policies that have challenged the ability of 
Uyghurs and other non-Han groups to protect their cultures, 
languages, and livelihoods. Authorities accelerated 
implementation of Mandarin-focused ``bilingual education,'' a 
program that has diminished the use of Uyghur and other non-
Mandarin languages in XUAR schools. [See Language Policy and 
Bilingual Education in this section for more information.] XUAR 
authorities bolstered steps to resettle farmers and resettle 
herders away from grasslands, as part of initiatives from the 
Xinjiang Work Forum and longstanding grasslands policies that 
have restricted grazing for the stated goal of combating 
grasslands degradation.\31\ The grasslands policies affect 
Mongols, Kazakhs, and other groups in the XUAR with cultural 
ties to pastoral livelihoods. [See Section II--Ethnic Minority 
Rights for more information on grasslands policies throughout 
China and its impact on non-Han groups.] An August 2011 report 
from official media cited animal excrement upsetting tourists 
and grasslands degradation as impetuses for a grazing ban 
imposed at a tourist site containing grasslands.\32\ August 
media reports also detailed plans to resettle herders from 
grasslands areas, including other tourist sites, and shift them 
to different occupations.\33\ The XUAR government reported in 
November 2010 on already resettling 669,000 farmers and herders 
and described plans to resettle a total of 106,000 nomadic 
herding households and 700,000 rural households by 2015.\34\
    Following the Xinjiang Work Forum, authorities also 
accelerated urban development, raising concerns about the 
resettlement of residents, equitable distribution of resources, 
and cultural preservation. Projects described as ``slum 
transformations'' took place in the past year in localities 
throughout the XUAR.\35\ A report from the state-run Xinhua 
news agency noted ``mostly ethnic Uyghurs'' made up the 250,000 
residents of Urumqi city's ``slum areas,'' which the report 
said ``are considered the breeding ground for the resentment 
which underpinned the deadly riots that rocked the city two 
years ago.'' \36\ In the past year XUAR authorities also 
detailed plans for developing part of Kashgar municipality and 
Korgas Port, along with part of Yining (Ghulja) municipality, 
Ili Kazakh Autonomous Prefecture, as two special economic zones 
reportedly ``modeled on Shenzhen'' and for developing Urumqi 
into a ``core city'' of western China and an ``international 
trade center,'' \37\ with reported plans to double or almost 
double the populations of Urumqi and Kashgar.\38\ Authorities 
expanded a longstanding trade fair in Urumqi into an inaugural 
``China-Eurasia Expo'' held in September, describing it as a 
``major strategic measure to achieve rapid development and the 
long-term stability of Xinjiang,'' with focus on ``making 
Xinjiang a bridgehead in the development of [the] western 
region.'' \39\ In addition, officials announced plans to 
construct a railway line between Golmud city, Qinghai province, 
and Korla city within the period of the 12th Five-Year Plan on 
National Economic and Social Development (2011-2015).\40\ Some 
Uyghurs and outside observers have expressed concern about the 
ability of Uyghur communities to maintain their culture amid 
top-down development projects and questioned whether Uyghurs 
would enjoy economic benefits on par with Han residents, 
against a backdrop of prior development projects that have 
brought disproportionate benefits to Han Chinese.\41\ The 
Kashgar plans come as authorities continue a five-year project 
to raze and rebuild the city's historic area. [See Preservation 
of Cultural Heritage in this section for more information.]

                   Criminal Law and Access to Justice

    Authorities in the XUAR continued to stress the role of the 
justice system in ``striking hard'' against the ``three 
forces'' of terrorism, separatism, and religious extremism. In 
2010, the Supreme People's Court issued an opinion on 
nationwide work to assist the XUAR court system. The opinion 
called for strengthening ``guidance'' for trying cases 
connected to endangering state security, including cases 
involving the ``three forces,'' as well as cases ``influencing 
ethnic unity'' and social ``harmony and stability.'' \42\ The 
opinion also called for dispatching ``politically steadfast'' 
judges to the XUAR.\43\ The Communist Party-controlled Xinjiang 
Lawyers Association held a training session for non-Han 
(``ethnic minority'') lawyers in December. In addition to 
providing professional training, the session's stated aim was 
strengthening ``ideological and political construction'' and 
cultivating ``politically steadfast'' lawyers.\44\ Speaking at 
the event, XUAR Justice Department head Abliz Hoshur noted 
ethnic minority lawyers' ``special role'' in dealing with 
sensitive cases, including those connected to events in July 
2009.\45\ He called on the lawyers to ``fully utilize the 
weapon of the law'' to battle the ``three forces.'' \46\
    Following a statement in March 2010 by XUAR government 
chairperson Nur Bekri that courts had tried 198 people in 97 
cases in connection to the July 2009 demonstrations and 
riots,\47\ Chinese government and media reports appeared to 
provide no additional details on trials connected to the July 
events. Nur Bekri said in his March 2010 remarks, however, that 
trials were ongoing.\48\ Later, in January 2011, Rozi Ismail, 
head of the XUAR High People's Court, also made a brief 
reference to ongoing cases connected to the events,\49\ but 
authorities did not provide specific information on the trials. 
Overseas media and a non-governmental organization reported on 
trials that took place in April and July 2010.\50\ A lawyer in 
the XUAR reported to overseas media in fall 2010 that she and 
other judges and lawyers had been sent to Urumqi, the XUAR 
capital, from other localities in the XUAR to handle July 2009-
related cases and that they were ordered to finish handling the 
cases by the end of 2010.\51\
    The number of trials completed in the XUAR for crimes of 
endangering state security (ESS)--a category of criminal 
offenses that authorities in China have used to punish citizen 
activism and dissent--decreased in 2010 compared to 2009 
figures, but remained higher than in years before 2009.\52\ 
Courts in the XUAR completed trials in 376 ESS cases in 2010, a 
decrease of 61 cases over the previous year.\53\ The 2009 
figure of 437 was a sharp increase over the 268 ESS cases tried 
in the region in 2008, as well as cases tried earlier in the 
decade.\54\ Officials did not report the reason for the high 
number of cases in 2009 and 2010, although Rozi Ismail, 
President of the XUAR High People's Court, said the 2010 
figures included cases connected to ``violent terrorist 
crimes,'' including crimes reported to have taken place in 
2008.\55\ Rozi Ismail did not link the ESS cases from 2010 to 
trials connected to the July 2009 demonstrations and riots. To 
date, official reports have not clearly specified how many 
trials connected to the July events involved ESS cases.\56\ 
Unofficial sources have reported on a limited number of trials 
connected to the July 2009 events that involve ESS charges, 
including the cases of Gulmira Imin, Gheyret Niyaz, Nijat Azat, 
Dilshat Perhat, and Nureli.\57\ [See Section III--Access to 
Justice for information on legal aid initiatives in western 
China.]

                     Controls Over Free Expression

    The XUAR government continued to exert tight controls over 
free expression. The government maintained regulations passed 
in the aftermath of the July 2009 demonstrations and riots that 
repress free speech,\58\ while a series of reports from the 
past year underscored continuing government repression of 
people who exercised their right to free expression. Radio Free 
Asia (RFA) reported in December 2010 that Uyghur journalist and 
webmaster Memetjan Abdulla received a life sentence in April 
2010 in apparent connection to translating an announcement 
calling on Uyghurs to hold demonstrations in July 2009 and in 
connection to interviews he gave to foreign journalists.\59\ 
RFA reported in March 2011 on the seven-year sentence of Uyghur 
webmaster Tursunjan Hezim in July 2010, following his detention 
in the aftermath of the July 2009 demonstrations and riots.\60\ 
A number of other Uyghur writers, journalists, and Web site 
workers continued to serve prison sentences in connection to 
exercising their right to free expression about the 
demonstrations and riots in July 2009 or otherwise deemed to 
have a connection to the events. They include Dilshat Perhat, 
Gheyret Niyaz, Gulmira Imin, Nijat Azat, and Nureli.\61\ 
Kajikhumar (Qazhyghumar) Shabdan, an ethnic Kazakh writer in 
the XUAR, remained under home confinement until his death in 
February 2011. Authorities had held him under home confinement 
following a 15-year prison sentence in 1987 for ``espionage,'' 
in reported connection to allegations that he belonged to an 
illegal group with ties to the Kazakh Soviet Socialist Republic 
and after he wrote a book critical of Chinese government policy 
toward Turkic groups.\62\ Outside the XUAR, Beijing authorities 
held Beijing-based Uyghur professor and webmaster Ilham Tohti 
and his family in custody at a resort in southern China for 
almost a week in December 2010 and placed additional 
restrictions on their activities and travel at other times.\63\
    The XUAR government continued to enforce censorship 
campaigns in the region, in line with both national campaigns 
and local directives to ``strike hard'' against the ``three 
forces'' of terrorism, separatism, and religious extremism. The 
XUAR Press and Publications Bureau said in July 2010 that the 
bureau would deepen its implementation of censorship work 
during the last half of 2010 and would focus on ``striking 
hard'' against ``reactionary propaganda materials'' and 
``illegal'' political and religious publications publicized and 
disseminated by the ``three forces.'' \64\ At a meeting in 
January 2011, an official called for strengthening inspection 
and prosecution connected to these publications and cited 
concerns about ``western enemy forces'' and the ``three 
forces'' ``importing western values and an ideological trend in 
`Xinjiang independence.' '' \65\ The official also called for 
strengthening oversight of transportation of published 
materials, and one locality reported finding ``suspicious 
items'' at a transportation inspection point that authorities 
later determined were ``illegal religious publications'' 
consisting of Uyghur- and Arabic-language items.\66\ Other 
localities within the XUAR also reported targeting or 
confiscating religious and political items.\67\ The World 
Uyghur Congress reported in December 2010 and February 2011 on 
people detained or charged for possessing religious materials 
and ``illegal'' DVDs and CDs with ``overseas enemy 
propaganda.'' \68\

                          Freedom of Religion

    Authorities in the XUAR continued to target ``illegal 
religious activities'' and ``religious extremism'' as threats 
to the region's stability, and they maintained curbs over 
religious activities independent of government control in the 
region's security campaigns, singling out Islamic practices in 
a number of cases. Authorities continued to define ``illegal 
religious activities'' and ``religious extremism'' to encompass 
religious practices, group affiliations, and viewpoints 
protected under international human rights guarantees for 
freedom of religion. A December meeting of the XUAR Party 
Committee Standing Committee called for ``resolutely preventing 
illegal religious activities and striking in accordance with 
law against religious extremist forces'' as part of work in the 
region to maintain stability.\69\ XUAR Communist Party 
Secretary Zhang Chunxian reiterated the pledge to curb illegal 
religious activities in August 2011, following attacks the 
previous month that officials labeled as terrorist.\70\ The 
region's two-month ``strike hard'' anti-terrorism campaign 
launched in August included ``illegal religious activities'' 
and ``religious extremism'' among its targets.\71\ Regional 
regulations and directives maintained restrictions on religious 
practice that are absent in national regulations or harsher 
than curbs articulated in national documents.\72\ Authorities 
continued to enforce a document of unclear legal status that 
defines ``23 kinds of illegal religious activity,'' including 
``letting students pray,'' conducting certain Islamic practices 
pertaining to marriage and divorce, holding private religious 
instruction classes, ``distorting religious doctrine,'' and 
advocating ``Pan-Islamism'' and ``Pan-Turkism.'' \73\ The 
region's 2009 regulation on the protection of minors stipulates 
penalties for people who ``lure or force minors to participate 
in religious activities'' and appears to provide the most 
extensive curbs in China on children's religious activities, 
while lacking a clear basis in Chinese law.\74\
    In line with regionwide directives restricting the scope of 
religious activity, local authorities in the XUAR reported on 
enforcing a range of controls over religion. Villages within 
Hoten district and a limited number of other localities 
continued to implement and expand a system of ``voluntary 
pledges'' to regulate villagers' behavior and to fine villagers 
for noncompliance, placing special emphasis on the pledges to 
curb ``illegal religious activity.'' \75\ In January 2011, 
authorities in a township in Chapchal Xibe Autonomous County, 
Ili Kazakh Autonomous Prefecture, described implementing a 
system for government religious affairs employees to set the 
schedule for Friday sermons at the township's mosques and for 
using ``religious information gatherers'' of ``high political 
consciousness'' to provide information on the sermon delivery 
and the ``ideological trends'' of mosque attendees.\76\ 
Authorities in a district in Urumqi described an emergence of 
``illegal religious sects'' that they deemed are ``contrary'' 
to the teachings of the Quran and they called on religious 
personnel to interpret religious doctrine in accordance with 
``social advancement.'' \77\ Local governments throughout the 
XUAR continued to place restrictions on the observance of the 
holiday of Ramadan, barring some people from fasting, ordering 
restaurants to stay open, and increasing oversight of religious 
venues.\78\ In April, a court in Shihezi municipality 
reportedly sentenced Muslim religious leaders Qahar Mensur and 
Muhemmed Tursun to three years' imprisonment in connection to 
storing and distributing ``illegal religious publications,'' 
which Shihezi residents reportedly described as retaliation 
after Qahar Mensur refused to comply with government demands 
such as bringing government documents into the mosque where he 
worked.\79\
    Authorities throughout the XUAR also continued campaigns 
targeting Muslim men who wear beards and women who wear veils 
or clothing deemed to carry religious connotations, practices 
authorities connect to ``religious extremism'' and 
``backwardness.'' \80\ Under the direction of the Party-
controlled women's federation in the XUAR, multiple localities 
reported continuing a campaign aimed at dissuading women from 
veiling their hair and faces.\81\ Management rules in force for 
the ``information corps'' in a residential district in Usu 
city, Tacheng (Tarbaghatay) district, included requirements to 
immediately report scenarios such as the presence of ``people 
from outside [the district] abnormally wearing large beards or 
veiling their faces'' along with ``residents holding extremist 
religious thoughts.'' \82\ A township in Aqsu district included 
veiling and wearing large beards or ``bizarre clothes'' among 
targets of a campaign against ``illegal'' religious 
activities.\83\ Authorities also continued to increase 
oversight of Muslim women religious specialists known as 
buwi.\84\ [See Section II--Freedom of Religion for additional 
information on religion in China, including cases from the 
XUAR.]

                Language Policy and Bilingual Education

    The XUAR government accelerated implementation of 
``bilingual education,'' a policy that promotes the use of 
Mandarin Chinese in school instruction for non-Han students and 
increasingly has curtailed the opportunity for non-Han groups 
to choose to receive education in Uyghur and other languages. 
The policy has conflicted with legal protections for non-Han 
groups to maintain and use their own languages, as provided in 
both Chinese and international law,\85\ and underscores 
government failure to maintain the use of Uyghur and other 
languages as lingua franca within the XUAR in line with the 
promotion of regional autonomy. Following goals set after the 
May 2010 Xinjiang Work Forum to universalize ``bilingual 
education'' in the region's schools,\86\ the XUAR government 
and Party Committee issued a 10-year education reform plan in 
January 2011 that provides for ``basically universalizing'' 
elementary and secondary school ``bilingual education'' among 
non-Han students (designated as ``ethnic minorities'' by the 
Chinese government) to reach a coverage rate of 75 percent of 
such students by 2015 and over 90 percent by 2020.\87\ The plan 
adds that all ethnic minority high school graduates shall 
``basically have a skilled grasp and use'' of spoken and 
written Mandarin by 2020.\88\ The plan also calls for coverage 
of at least 85 percent of ethnic minority preschoolers by 2012, 
a target authorities appear to have articulated since 2008.\89\ 
The plan describes the promotion of ``bilingual education'' of 
``strategic significance'' for goals including ``building a new 
model of socialist ethnic relations'' and ``promoting cohesion 
and centripetal force toward the Chinese nation (zhonghua 
minzu).'' \90\ The plan also calls for protecting the right to 
instruction using minority languages and allows for preserving 
instruction using such languages in the process of implementing 
``bilingual education.'' \91\ The future role of non-Mandarin 
languages in XUAR schools and broader society, however, remains 
uncertain as the plan and accompanying measures bolster overall 
support for instruction in Mandarin. The implementation of 
Mandarin-focused ``bilingual'' programs and accompanying 
reduction in classes using minority languages reportedly has 
provoked dissatisfaction among some students, parents, and 
teachers, and a few localities reportedly reinstated some 
Uyghur-language instruction in the past year.\92\
    XUAR authorities also have accelerated steps to staff 
``bilingual'' classes and address a shortage of ``bilingual'' 
teachers. In 2010, the Xinjiang Education Department announced 
plans to recruit 5,109 elementary and secondary school 
``bilingual'' teachers, reportedly marking the largest scope of 
recruitment for ``specially appointed teachers'' as of that 
date.\93\ Authorities announced plans to recruit over 11,500 
teachers in 2011, of whom 9,200 would be ``bilingual'' 
teachers.\94\ Localities within the XUAR also reported 
increasing ``bilingual'' training among ethnic minority 
teachers.\95\ Authorities have dismissed or reassigned some 
Uyghur teachers deemed not to have adequate Mandarin skills--
with a minimum of 1,000 elementary school teachers dismissed 
since 2010, according to one report--and in some cases, 
authorities detained teachers for protesting ``bilingual'' 
policies or dismissals from their teaching posts.\96\
    Authorities also reported taking some steps to promote 
ethnic minority language arts classes within Mandarin-focused 
schools and to train Mandarin-speaking teachers in minority 
languages. A pilot project in two prefectural-level areas 
called for implementing language arts classes in minority 
languages for ethnic minority students (minkaohan students) in 
longstanding programs that provide schooling solely in 
Mandarin.\97\ A January 2011 plan called for providing 320 
class hours of instruction in basic ``ethnic minority 
languages'' for teachers at ``bilingual'' preschools who are 
native Mandarin speakers.\98\

                      Population Planning Policies

    XUAR authorities continued to expand a system of rewarding 
non-Han households (``ethnic minority'' households) that have 
been ``certified'' as having fewer children than the maximum 
allowed under the region's regulation on population and family 
planning.\99\ This step builds on similar reward systems 
present throughout China, while intensifying a regional focus 
on ethnic minority households. The XUAR Party Committee and 
government reported plans in the past year to expand the 
existing reward system in 2011 to any XUAR county or city where 
rural ethnic minorities comprise over 50 percent of the 
population.\100\ Authorities initially implemented the reward 
system for ethnic minorities in 3 southern XUAR prefectural-
level areas in 2007 \101\ and expanded the reward system in 
2009 to an additional 26 ``poor and border counties.'' \102\ 
Local governments reported enforcing the reward system in the 
past year.\103\

               Pledge System To Regulate Village Behavior

    Some villages within the XUAR continued to implement and 
expand a system of ``voluntary pledges'' to regulate villagers' 
behavior and to fine villagers for non-compliance, a practice 
that has no explicit basis in Chinese law and appears to exceed 
the scope of villages' authority to enforce penalties.\104\ 
Under the pledge system, first implemented in Hoten district in 
2006 \105\ and almost wholly unique to the XUAR,\106\ village 
residents and village officials enter into agreements (cungui 
shouyue chengnuoshu) with villagers' committees to abide by 
local village ``codes of conduct'' (cungui minyue).\107\ 
Villages throughout China use codes of conduct, which are 
stipulated under the PRC Organic Law of the Villagers' 
Committees,\108\ to implement population planning requirements, 
regulate social order, and manage local production, among other 
tasks.\109\ In the XUAR, authorities have used the pledge 
system to bolster the efficacy of these codes of conduct, 
placing special emphasis on the pledges and codes of conduct to 
curb ``illegal religious activity.'' \110\ An official 
described the villagers' participation in the pledge system as 
voluntary,\111\ but a 2007 government and Party directive from 
one district called for achieving a participation rate of over 
98 percent within each village.\112\

                                 Labor


                             discrimination


    Hiring practices that discriminate against non-Han groups 
continued in the Xinjiang Uyghur Autonomous Region (XUAR) in 
the past year. Some job recruitment announcements from the 
region continued to reserve positions exclusively for Han 
Chinese in civil servant posts and private-sector jobs, in 
contravention of provisions in Chinese law that forbid 
discrimination.\113\ A job announcement for a hospital in 
Urumqi city, for example, advertised in late 2010 for 28 
positions, all of which were reserved for Han.\114\ Civil 
servant recruitment in fall 2010 for county-level discipline 
inspection and supervision offices reserved 93 of 224 open 
positions for Han, leaving 93 of the remaining positions 
unrestricted by ethnicity and reserving 38 for members of non-
Han (``ethnic minority'') groups.\115\ In an apparent shift 
from previous years, however, 2011 annual recruiting for the 
Xinjiang Production and Construction Corps (XPCC) left almost 
all positions unreserved by ethnicity--marking a change from 
past practice of formally reserving a majority of positions for 
Han--but the XPCC continued restrictions based on sex.\116\
    A XUAR government and Party committee opinion on employment 
promotion issued in October 2009 called for enterprises 
registered in the XUAR and enterprises working there to recruit 
no fewer than 50 percent of workers from among local XUAR 
residents and to ``recruit more ethnic minority workers to the 
extent possible,'' \117\ including an unspecified ``fixed 
proportion'' of positions for ethnic minority college 
graduates.\118\ The extent to which some enterprises adhered to 
the opinion's provisions on minority workers in the past year 
is unclear.\119\ In January 2011, several XUAR government and 
Party offices issued an opinion on sending ethnic minority 
university graduates to train in areas engaged in counterpart 
support relationships with the region. Citing concerns about 
employment pressures on the region's stability and economic 
development, the opinion outlines plans to train 22,000 
unemployed college graduates from the XUAR in the next two 
years,\120\ after which trainees reportedly may take up set 
posts within the XUAR or remain in areas elsewhere in China to 
find work.\121\ The opinion states the program's usefulness in 
``transforming ideas,'' promoting ``good sentiments'' among the 
ethnicities, strengthening a ``sense of identification toward 
the Chinese nation'' (zhonghua minzu), and promoting ``social 
stability'' and ``ethnic assimilation'' (minzu ronghe).\122\ 
The opinion does not address barriers to employment due to job 
recruiting practices that reserve positions for Han.


                            labor transfers


    Government programs to send rural non-Han men and women to 
jobs elsewhere in China continued in the past year. As 
documented by the Commission in recent years, some participants 
and their family members have reported coercion to participate 
in the programs, the use of underage workers, and exploitative 
working conditions.\123\ XUAR authorities have described the 
programs as a way for XUAR workers to gain income, build job 
skills, and transform participants' ``outmoded thinking.'' 
\124\ A XUAR Department of Agriculture official said in 
September 2010 that ``the state policy of encouraging 
relatively developed areas to recruit workers from Xinjiang 
will not change.'' \125\ Another official described 
``Xinjiang's organizing ethnic minority youth to go [elsewhere 
in China] to engage in manufacturing and construction 
activities'' as an ``inevitable large trend'' in professional 
resources exchange in a market economy.\126\ Official media 
reported in May 2011 that there have been 800,000 instances 
since 2005 of XUAR laborers going to work in other provinces 
under government auspices.\127\ The ongoing work to export the 
labor force comes amid a reported shortage of agricultural and 
factory workers within the XUAR, for which employers have 
recruited laborers from other provinces and used student 
labor.\128\


                               work study


    Education authorities in the XUAR continued to require 
students to pick cotton and engage in other forms of labor in 
``work-study'' programs that have exceeded permitted parameters 
for student labor under Chinese law and international standards 
for worker rights.\129\ Under the programs, schools take 
students out of class for periods of one to two weeks during 
the academic year to engage in full-time labor; in some 
reported cases, students have worked for longer periods and 
under hazardous conditions.\130\ Although the XUAR Education 
Department issued a circular in 2008 stating that students in 
junior high and lower grades would no longer pick cotton in the 
work-study programs,\131\ reports from 2010 indicated that some 
localities continued to use these younger students to meet the 
shortage of cotton-pickers.\132\ Officials stressed the 
importance of using students to meet labor shortages following 
demonstrations and riots in the region in July 2009.\133\

                   Preservation of Cultural Heritage

    National and XUAR government officials continued to 
implement projects that have undermined Uyghurs' ability to 
protect their cultural heritage. Authorities continued steps to 
demolish and ``reconstruct'' the Old City section of Kashgar 
city and relocate residents. The five-year project, launched in 
2009, has drawn opposition from Uyghur residents and other 
observers for requiring the resettlement of residents and for 
undermining cultural heritage protection.\134\ Official media 
reported in July 2011 that authorities revived the project in 
August 2010 after ``nearly falling into stagnation'' following 
the July 2009 demonstrations and riots and reported plans to 
complete restoration of 10,566 homes during the year.\135\ A 
Kashgar official reported in October 2010 that 9,378 houses had 
been ``removed'' to date, while 16,557 homes had been built or 
restored.\136\ The Chinese government also continued to 
politicize the preservation of Uyghur intangible cultural 
heritage. In November 2010, the UN Educational, Scientific and 
Cultural Organization (UNESCO) accepted China's nomination to 
place the meshrep, a Uyghur social and artistic gathering, on 
its List of Intangible Cultural Heritage in Need of Urgent 
Safeguarding.\137\ While the designation obligates China to 
take measures to promote the practice's sustainability,\138\ 
the Chinese government defined the meshrep narrowly to exclude 
forms of the practice that have incorporated religious elements 
and social activism.\139\ In the mid-1990s, authorities in 
Yining (Ghulja) municipality, Ili Kazakh Autonomous Prefecture, 
prohibited meshrep gatherings where participants sought to 
reduce alcohol and drug use and had become active in organizing 
a boycott of alcohol stores.\140\

          Forced Return of Uyghur Asylum Seekers and Migrants

    In the past year, information remained limited on the 
status of Uyghur asylum seekers forcibly returned to China from 
Cambodia in December 2009, before the UN High Commissioner for 
Refugees (UNHCR) could make a determination of the asylum 
seekers' refugee status.\141\ Following the forced deportation 
of the 20 asylum seekers and disappearance of another 2 who 
escaped forced return, the Chinese government reported in June 
2010 that 3 of the 20 people returned to China were suspected 
of terrorist crimes, and that all 17 who remained in custody 
were members of a terrorist group \142\--charges that, even if 
made at the time of extradition, would not have precluded an 
assessment of the asylum cases by UN officers.\143\ The 
government appeared to provide no additional information on the 
cases in the past reporting year. According to a March 2011 
Radio Free Asia article, the group was held in detention in 
Kashgar district, and their cases had not gone to trial.\144\ 
One of the asylum seekers who had escaped forced return from 
Cambodia and was deported from Laos to China in March 2010 
reportedly was held in detention in Kashgar with the group, 
where he reportedly was in poor health and was denied medical 
care for an arm infection.\145\
    In May 2011, Chinese security officials in cooperation with 
authorities in Kazakhstan forcibly returned Ershidin Israil, a 
Uyghur man from the XUAR, from Kazakhstan to China.\146\ 
Ershidin Israil left China in 2009 after Chinese authorities 
reportedly sought him for providing information to Radio Free 
Asia about the death of Shohret Tursun, a Uyghur man held in 
custody after the July 2009 demonstrations and riots in the 
XUAR.\147\ Ershidin Israil received refugee status from the 
UNHCR in March 2010 and had awaited resettlement to Sweden 
before authorities in Kazakhstan took him into custody and the 
UNHCR revoked his refugee status.\148\ Upon his return, Chinese 
authorities reportedly charged him for terrorist acts. A family 
member and advocates for Ershidin Israil said that the charges 
and bases for revoking his refugee status were based on false 
information.\149\ In August, authorities in Thailand detained 
Nur Muhammed, a Uyghur man from the XUAR, on grounds of illegal 
entry. Thai authorities bypassed a court appearance as provided 
by Thai law and turned him over to Chinese authorities, who are 
presumed to have returned him to China.\150\ The same month, 
authorities in Pakistan reportedly forcibly returned five 
Uyghurs, including two children, to China.\151\ Later in 
August, Malaysian authorities deported 11 Uyghur men from 
Malaysia to China, following the arrests of a group of 16 
Uyghurs earlier in the month.\152\
    The forced returns violate the Convention Against Torture, 
which provides, ``No State Party shall expel, return 
(`refouler') or extradite a person to another State where there 
are substantial grounds for believing that he would be in 
danger of being subjected to torture.'' \153\ [See Section II--
Criminal Justice for additional information on the use of 
torture in China.] In addition, the return of Uyghur asylum 
seekers violates the principle of non-refoulement as stipulated 
in the 1951 Convention Relating to the Status of Refugees.\154\ 
The forced returns from Cambodia, Laos, Kazakhstan, Pakistan, 
and Thailand are among several documented cases of forced 
deportation in recent years, highlighting the ongoing risks of 
refoulement and torture that Uyghur asylum seekers, refugees, 
and migrants have faced in neighboring countries under the sway 
of China's influence and its disregard for international 
law.\155\

                                Endnotes

    \1\ See, e.g., Cheng Lixin and Sui Yunyan, ``Persist in the 
Normalization of Work To Safeguard Stability, Guarantee the Stability 
of Overall Society'' [Jianchi weiwen gongzuo changtaihua quebao shehui 
daju wending], Xinjiang Daily, 25 December 10; ``Autonomous Region 
Chair Nur Bekri Issues 2011 New Year's Speech, Grab Opportunities, Try 
Hard and Fight to the Fullest, Wholeheartedly Drive Ahead With 
Xinjiang's Development by Leaps and Bounds and Long-Term Stability'' 
[Zizhiqu zhuxi nu'er baikeli fabiao 2011 nian xinnian zhici qiangzhua 
jiyu fenli pinbo quanli tuijin xinjiang kuayueshi fazhan he 
changzhijiu'an], Xinjiang Daily, 1 January 11; ``Government Work 
Report'' [Zhengfu gongzuo baogao], Xinjiang Daily, 20 January 11; Cao 
Huijuan et al., ``Fu Qiang: Strengthen Sense of Responsibility, 
Urgency, and Mission in Work To Safeguard Stability'' [Fu qiang: 
zengqiang weiwen gongzuo zerengan jinpogan shiminggan], Xinjiang Peace 
Net, 13 December 10.
    \2\ See examples that follow within this section, as well as, e.g., 
CECC, 2010 Annual Report, 10 October 10, 200-13.
    \3\ Cheng Lixin and Sui Yunyan, ``Persist in the Normalization of 
Work To Safeguard Stability, Guarantee the Stability of Overall 
Society'' [Jianchi weiwen gongzuo changtaihua quebao shehui daju 
wending], Xinjiang Daily, 25 December 10.
    \4\ Ibid.
    \5\ See, e.g., Kashgar Municipal People's Government, ``Kashgar 
Municipal People's Government Announcement'' [Kashi shi renmin zhengfu 
gonggao], 1 August 11; Kashgar Municipal People's Government, ``Our 
Municipality Resolutely Deals With Violent Terrorism Case'' [Wo shi 
guodan chuzhi yiqi baoli kongbu anjian], 1 August 11; ``Chinese State 
Councilor Vows To Crack Down on Terrorists,'' Xinhua, 4 August 11; 
``Fourteen Gangsters Shot Dead in Terrorist Acts of Violence in Hotan, 
Xinjiang,'' China News Service, 20 July 11 (Open Source Center, 20 July 
11); ``3 Cases of Serious Violent Terrorist Crimes From Kashgar Are 
Concluded'' [Kashi sanqi yanzhong baoli kongbu fanzui anjian shenjie], 
Xinjiang Daily, reprinted in Xinhua, 23 March 11; Kashgar District 
People's Government, ``Resolutely Uphold the Dignity of the Law'' 
[Jianjue weihu falu zunyan], 23 March 11. In some cases, the incidents 
appear to have been described as terrorist crimes months after they 
were initially reported. See, e.g., Sui Yunyan, ``Hami Armed Murder 
Case Cracked'' [Hami shi chiqiang sharen an gaopo], Xinjiang Daily, 3 
December 10 (reporting on September 29 and November 3 murder cases as 
ordinary crimes); Aksu District Administration News Office, 
``Explosives Attack Occurs in Aksu City, Xinjiang'' [Xinjiang akesu shi 
fasheng yiqi baozha xiji an], reprinted in Aksu District People's 
Government, 19 August 10 (describing August 19 attack as ordinary 
crime); ``Judgment Made Public in Three Cases of Terrorist Crime'' 
[Gongkai xuanpan sanqi baoli kongbu fanzui anjian], Xinjiang Daily, 23 
February 11 (state-controlled media reporting of crimes in Aksu and 
Hami as terrorist); ``Severely Punishing Terrorist Crimes Shows Respect 
for Law'' [Yancheng baoli kongbu fanzui zhangxian falu zunyan], 
Xinjiang Daily, 23 February 11 (editorial in state-controlled media 
describing crimes as terrorist).
    \6\ Based on CECC assessment of the reports. See, e.g., Kashgar 
Municipal People's Government, ``Kashgar Municipal People's Government 
Announcement'' [Kashi shi renmin zhengfu gonggao], 1 August 11; Kashgar 
Municipal People's Government, ``Our Municipality Resolutely Deals With 
Violent Terrorism Case'' [Wo shi guodan chuzhi yiqi baoli kongbu 
anjian], 1 August 11; ``Chinese State Councilor Vows To Crack Down on 
Terrorists,'' Xinhua, 4 August 11; ``Fourteen Gangsters Shot Dead in 
Terrorist Acts of Violence in Hotan, Xinjiang,'' China News Service, 20 
July 11 (Open Source Center, 20 July 11); ``3 Cases of Serious Violent 
Terrorist Crimes From Kashgar Are Concluded'' [Kashi sanqi yanzhong 
baoli kongbu fanzui anjian shenjie], Xinjiang Daily, reprinted in 
Xinhua, 23 March 11; Kashgar District People's Government, ``Resolutely 
Uphold the Dignity of the Law'' [Jianjue weihu falu zunyan], 23 March 
11. In some cases, the incidents appear to have been described as 
terrorist crimes months after they were initially reported. See, e.g., 
Sui Yunyan, ``Hami Armed Murder Case Cracked'' [Hami shi chiqiang 
sharen an gaopo], Xinjiang Daily 3 December 10 (reporting on September 
29 and November 3 murder cases as ordinary crimes); Aksu District 
Administration News Office, ``Explosives Attack Occurs in Aksu City, 
Xinjiang'' [Xinjiang akesu shi fasheng yiqi baozha xiji an], reprinted 
in Aksu District People's Government, 19 August 10 (describing August 
19 attack as ordinary crime); ``Judgment Made Public in Three Cases of 
Terrorist Crime'' [Gongkai xuanpan sanqi baoli kongbu fanzui anjian], 
Xinjiang Daily, 23 February 11 (state-controlled media reporting of 
crimes in Aksu and Hami as terrorist); ``Severely Punishing Terrorist 
Crimes Shows Respect for Law'' [Yancheng baoli kongbu fanzui zhangxian 
falu zunyan], Xinjiang Daily, 23 February 11 (editorial in state-
controlled media describing crimes as terrorist). For background 
information on Chinese government reporting on terrorist cases, see 
``Uighurs Face Extreme Security Measures; Official Statements on 
Terrorism Conflict,'' CECC China Human Rights and Rule of Law Update, 
May 2006, 12. For information on restrictions on free press, see 
Section II--Freedom of Expression.
    \7\ ``Fourteen Gangsters Shot Dead in Terrorist Acts of Violence in 
Hotan, Xinjiang,'' China News Service, 20 July 11 (Open Source Center, 
20 July 11).
    \8\ See, e.g., ``Clashes in Silk Road Town,'' Radio Free Asia, 18 
July 11; World Uyghur Congress, ``World Uyghur Congress (WUC) Troubled 
by Witness Accounts on Hotan Incident,'' 19 July 11.
    \9\ Sui Yunyan and Zhang Min, ``Autonomous Region Public Security 
Organs Launch Special 100-Day Operation for Taking Strict Precautions 
Against and Striking Hard Against Serious Violent Crimes'' [Zizhiqu 
gongan jiguan kaizhan bairi yanfang yanda yanzhong baoli fanzui 
zhuanxiang xingdong], Xinjiang Daily, 24 December 10.
    \10\ Cheng Lixin, ``Autonomous Region Leading Group on State 
Security Work Is Established'' [Zizhiqu guojia anquan gongzuo lingdao 
xiaozu chengli], Xinjiang Daily, 1 March 11.
    \11\ See, e.g., Chen Zehua, ``Our Region Launches Special Operation 
To `Strike Hard Against Violent Terrorist Crimes' '' [Wo qu kaizhan 
``yanli daji baoli kongbu fanzui'' zhuanxiang xingdong], Xinjiang Legal 
Daily, reprinted in Xinjiang Peace Net, 15 August 11; Ji Jun, Aksu 
Municipal People's Government, ``District Convenes Meeting on Upholding 
Stability, Huang Sanping Makes Important Speech'' [Diqu zhaokai wei wen 
gongzuo huiyi huang sanping zuo zhongyao jianghua], 25 July 11; 
``Security Tightened as Urumqi Gears Up for China-Eurasia Expo,'' 
Xinhua, 30 August 11; ``Tensions Amid Xinjiang Clampdown,'' Radio Free 
Asia, 19 August 11.
    \12\ Chen Zehua, ``Our Region Launches Special Operation To `Strike 
Hard Against Violent Terrorist Crimes' '' [Wo qu kaizhan ``yanli daji 
baoli kongbu fanzui'' zhuanxiang xingdong], Xinjiang Legal Daily, 
reprinted in Xinjiang Peace Net, 15 August 11.
    \13\ Yang Yuanyuan and Zhang Xuemin, ``Total Population of Urumqi 
Surmounts 2.6 Million, Birthrate Maintains Low Growth'' [Wulumuqi 
zongrenkou tupo 260 wan chushenglu baochi di zengzhang], Tianshan Net, 
2 November 10.
    \14\ ``Surveilance [sic] Cameras To Keep Northwest China's Riot-
Rocked City Under Watch,'' Xinhua, reprinted in Global Times, 26 
January 11.
    \15\ ``At End of This Year Video Cameras in Urumqi Proper To Reach 
60,000'' [Jinnianmo wulumuqi chengqu shipin shexiang tou jiang dadao 6 
wan zhi], China News Service, 15 January 10.
    \16\ The city had 46,953 cameras by November 2009 and added 
``nearly 17,000'' in 2010. ``At End of This Year Video Cameras in 
Urumqi Proper To Reach 60,000'' [Jinnianmo wulumuqi chengqu shipin 
shexiang tou jiang dadao 6 wan zhi], China News Service, 15 January 10; 
``Surveilance [sic] Cameras To Keep Northwest China's Riot-Rocked City 
Under Watch,'' Xinhua, reprinted in Global Times, 26 January 11.
    \17\ CECC, 2010 Annual Report, 10 October 10, 210.
    \18\ Ge Youjun and Tan Yanbin, ``Urumqi Launches 100-Day 
Rectification Campaign for Floating Population and Room Rentals'' [Wu 
shi kaizhan liudong renkou he chuzu fangwu bairi zhuanxiang zhengzhi], 
Xinjiang Peace Net, 2 December 10. See also Yi Changchun, ``Shuimogou 
District Launches 100-Day Special Rectification Work Mobilization 
Meeting'' [Shuiqu zhaokai bairi zhuanxiang zhengzhi gongzuo dongyuan 
dahui], Xinjiang Peace Net, 16 December 10; Zhao Yuhong, ``North 
Jiefang Road Residential Area Organizes and Launches 100-Day Special 
Rectification Work Meeting'' [Jiefang bei lu jiedao zuzhi zhaokai bairi 
zhuanxiang zhengzhi gongzuohui], Xinjiang Peace Net, 17 December 10.
    \19\ Yi Changchun, ``Shuimogou District Launches 100-Day Special 
Rectification Work Mobilization Meeting'' [Shuiqu zhaokai bairi 
zhuanxiang zhengzhi gongzuo dongyuan dahui], Xinjiang Peace Net, 16 
December 10.
    \20\ ``One Good Plan After the Other for Management of Urumqi 
Floating Population'' [Wulumuqi shi liudong renkou guanli haozhao 
lianlian], Tianshan Net, 23 May 11.
    \21\ `` `No Passports' for Uyghurs,'' Radio Free Asia, 10 September 
10; ``Uyghurs Targeted Amidst Reform Call,'' Radio Free Asia, 28 
February 11.
    \22\ Zhongshan City Judicial Bureau, ``Zhongshan City Judicial 
Bureau Launches People's Mediation Activity for `100-Day Campaign for 
Peaceful Asian Games' '' [Zhongshan shi sifaju kaizhan renmin tiaojie 
``pingan yayun bairi dahuizhan'' huodong], 31 August 10.
    \23\ Changde City People's Government, ``City Ethnic and Religious 
Affairs Bureau: Create Satisfaction Mechanisms, Use Service To Promote 
Development and Seek Stability'' [Shi minzu zongjiao shiwuju: chuang 
manyi jiguan yi fuwu cu fazhan qiu wending], 22 December 10. For an 
example from elsewhere in Hunan province, see Yongxing County United 
Front Work Department, ``Yongxing County Uses Strengthening Functions 
and Stimulating United Front Work To Magnify New Bright Spots'' 
[Yongxing xian yi qianghua zhineng jifa tongzhan gongzuo tuxian xin 
liangdian], Chenzhou City United Front News Net, 15 December 10.
    \24\ See generally Xinjiang Uyghur Autonomous Region Regulation on 
Ethnic Unity Education [Xinjiang weiwu'er zizhiqu minzu tuanjie jiaoyu 
tiaoli], effective 1 February 10. For detailed analysis of the 
regulation and broader ``ethnic unity'' campaigns in the region, see `` 
`Xinjiang Ethnic Unity' Regulation Imposes Party Policy, Restricts Free 
Expression,'' CECC China Human Rights and Rule of Law Update, No. 3, 16 
March 10, 2; CECC, 2010 Annual Report, 10 October 10, 201-2.
    \25\ ``Summary of Educational Activities on Theme of `Ardently 
Loving the Great Motherland, Building a Glorious Homeland' '' [Re'ai 
weida zuguo jianshe meihao jiayuan zhuti jiaoyu huodong zongshu], 
Xinhua, 23 March 11.
    \26\ Ibid.
    \27\ Ibid.
    \28\ For more information on the forum, see CECC, 2010 Annual 
Report, 10 October 10, 207-8, and ``Central Leaders Hold Forum on 
Xinjiang, Stress Development and Stability as Dual Goals,'' CECC China 
Human Rights and Rule of Law Update, No. 6, 12 July 10, 3. For 
comprehensive reporting on the forum from Chinese media, see, e.g., Zou 
Shengwen and Gu Ruizhen, ``The CPC Central Committee and State Council 
Hold Xinjiang Work Conference; Hu Jintao, Wen Jiabao Give Important 
Speeches; Zhou Yongkang Gives a Summing-Up Speech; Wu Bangguo, Jia 
Qinglin, Li Changchun, Xi Jinping, Li Keqiang, and He Guoqiang Attend 
the Conference,'' Xinhua, 20 May 10 (Open Source Center, 23 May 10). 
For information on past development efforts, see, e.g., CECC, 2009 
Annual Report, 10 October 09, 263-64.
    \29\ See, e.g., ``Grasp Key Points, Grasp the Breakthrough Point, 
Comprehensively Implement the Spirit of the Central Work Forum on 
Xinjiang'' [Zhuazhu guanjian dian zhuahao tupokou quanmian luoshi 
zhongyang xinjiang gongzuo zuotanhui jingshen], People's Daily, 26 
September 10; Cheng Lixin, ``Go a Step Further To Emancipate the Mind 
and Maintain and Expand the First Stages of a Good Situation'' [Jinyibu 
jiefang sixiang baochi he kuoda chubu xingcheng de hao xingshi], 
Xinjiang Daily, 10 October 10; ``Government Work Report'' [Zhengfu 
gongzuo baogao], Xinjiang Daily, 20 January 11.
    \30\ See, e.g., ``National Conference for Aid-Xinjiang Work Opens, 
Li Keqiang and Zhou Yongkang Give Speeches'' [Quanguo duikou zhiyuan 
xinjiang gongzuohui zhaokai li keqiang zhou yongkang jianghua], Xinhua, 
30 March 10; Supreme People's Court Guiding Opinion Concerning Aiding 
Xinjiang Court Work [Zuigao renmin fayuan guanyu duikou zhiyuan 
xinjiang fayuan gongzuo de zhidao yijian], undated (estimated date 
October 2010), item 3(5). For more information on counterpart support, 
see ``Central Leaders Hold Forum on Xinjiang, Stress Development and 
Stability as Dual Goals,'' CECC China Human Rights and Rule of Law 
Update, No. 6, 12 July 10, 3.
    \31\ See Section II--Ethnic Minority Rights in this report and 
CECC, 2010 Annual Report, 10 October 10, 207-8, for more information on 
grasslands policy and on initiatives announced at the forums.
    \32\ ``Scenic Area of Tianshan Heavenly Lake, Xinjiang, Continues 
`Grazing Ban,' Will Enlarge Strength in Future'' [Xinjiang tianshan 
tianchi jingqu chixu ``jinmu'' weilai jiang jiada lidu], Xinhua, 
reprinted in Sohu, 2 August 11.
    \33\ Ibid.; Shao Wei, ``Herders Face Five Year Ban on Grazing,'' 
China Daily, 1 August 2011.
    \34\ ``Xinjiang Wealthy Folks Affordable Housing Project Makes 
Smooth Progress, 670,000 Farmers and Herders Move Into New Homes'' 
[Xinjiang fumin anju gongcheng jinzhan shunli 67 wan nongmumin ruzhu 
xinfang], Xinhua, 8 November 10. For information on earlier reported 
plans to resettle herders, see Cui Jia, ``New Measures To Boost 
Xinjiang Livelihoods,'' China Daily, 28 May 10.
    \35\ See, e.g., Yang Yonghua, ``Bortala Slum Transformation 
Embodies Putting People at the Center'' [Bole shi penghuqu gaizao 
tixian yiren weiben], China Xinjiang, 8 November 10; Zhao Guangping, 
``Fukang City Slum District Transformation Enables Residents' Dreams of 
Peaceful Life'' [Fukang shi penghuqu gaizao yuanle jumin anju meng], 
Tianshan Net, 13 December 10; Tao Tao, Chen Zhe, ``Entering the Slum 
Districts: Urumqi Slum Transformation, Sunshine To Benefit the People'' 
[Zoujin penghuqu: wulumuqi shi penghu gaizao yangguang huimin], 
Xinjiang News Net, 5 February 11.
    \36\ ``Urumqi's Sweeping Slum Makeover Gathers Steam,'' Xinhua, 16 
May 11.
    \37\ For detailed information on the special economic zones (SEZs), 
including background on initial planning in 2009 to create the SEZs and 
their formation in mid-2010, see Wang Rengui et al., ``Xinjiang 
`Special Economic Zones' Unveiled,'' Liaowang, 30 May 11-05 Jun 11 
(Open Source Center, 27 July 11). See also ``Xinjiang To Set Up Two 
Special Economic Zones in 2011,'' People's Daily, 14 February 11; 
``China Aims To Build Xinjiang's Capital Into Int'l Trade Center,'' 
Xinhua, 30 March 11.
    \38\ ``China Aims To Build Xinjiang's Capital Into Int'l Trade 
Center,'' Xinhua, 30 March 11; ``Xinjiang To Set Up Two Special 
Economic Zones in 2011,'' People's Daily, 14 February 11 (describing 
plans to increase Kashgar's population to 1 million); Kashgar Municipal 
People's Government, ``Brief Introduction to Kashgar Municipality'' 
[Kashi shi jianjie], 9 November 10 (describing current population as 
600,000, including a floating population of 150,000).
    \39\ ``China-Eurasia Expo,'' China-Eurasia Expo Web site, last 
visited 26 August 11.
    \40\ ``New Railway To Cut Short Trip Between Capital Cities of 
Tibet, Xinjiang,'' Xinhua, 6 March 11.
    \41\ See, e.g., ``Development Could Widen Ethnic Divide,'' Radio 
Free Asia, 31 March 11; ``Plan To Build `Guangzhou New City' in Kashgar 
Gives People Deep Grief'' [Qeshqerde ``guangju yengi shehri'' ning 
qurulush pilani kishini chongqur qayghugha salidu], Radio Free Asia, 18 
April 11; ``Has the Economic Development Region in Korla Only Been Open 
to Han? '' [Korlidiki iqtisadiy tereqqiyat rayoni peqet xitaylarghila 
echiwetilgenmu?], Radio Free Asia, 19 April 11. For additional 
information on past development projects, see CECC, 2009 Annual Report, 
10 October 09, 263-64.
    \42\ Supreme People's Court Guiding Opinion Concerning Aiding 
Xinjiang Court Work [Zuigao renmin fayuan guanyu duikou zhiyuan 
xinjiang fayuan gongzuo de zhidao yijian], undated (estimated date 
October 2010), item 4(8).
    \43\ Ibid., item 3(5).
    \44\ Xinjiang Lawyers Association, ``2010 Regionwide Ethnic 
Minority Lawyers' Training Class Begins Soon, Publicity Underway During 
Organization and Preparatory Work'' [2010 nian quanqu shaoshu minzu 
lushi peixunban kaike zaiji zuzhi zhunbei gongzuo jinluo migu], 1 
December 10. For more information on the training, see ``Xinjiang's 
First Large-Scale Training Class for Ethnic Minority Lawyers Stresses 
Meeting Political Goals,'' Congressional-Executive Commission on China, 
19 January 11.
    \45\ Xinjiang Lawyers Association, ``2010 Regionwide Training Class 
for Ethnic Minority Lawyers Opens in Urumqi, Justice Department Head 
Abliz Hoshur Attends Opening Ceremony and Makes Important Speech'' 
[2010 nian quanqu shaoshu minzu lushi peixunban zai wu kaike sifating 
tingchang abulizi wushou'er chuxi kaike yishi bing zuo zhongyao 
jianghua], 5 December 10.
    \46\ Ibid.
    \47\ ``Xinjiang Official Stresses Fighting Separatism, Says 198 
Sentenced for Deadly Riot,'' Xinhua, 7 March 10; ``198 People in 97 
Cases Already Tried and Sentenced in Urumqi `7-5' Incident'' [Wulumuqi 
``7-5'' shijian yi shenli xuanpan 97 an 198 ren], Xinhua, 7 March 10. 
See analysis in ``198 People in Xinjiang Reportedly Sentenced in Trials 
Marked by Lack of Transparency,'' CECC China Human Rights and Rule of 
Law Update, No. 4, 21 April 10, 2.
    \48\ ``Xinjiang Official Stresses Fighting Separatism, Says 198 
Sentenced for Deadly Riot,'' Xinhua, 7 March 10.
    \49\ Han Xiaoyi, ``Xinjiang Last Year Completed Trials in 376 Cases 
of Crimes of Endangering State Security'' [Xinjiang qunian shenjie 
weihai guojia anquan fanzui anjian 376 jian], People's Daily, 16 
January 11.
    \50\ ``Uyghur Journalist Handed Life Term,'' Radio Free Asia, 21 
December 10; ``Uyghur Student Sentenced to Death,'' Radio Free Asia, 30 
December 10; ``Uyghur Historian Given 7 Years,'' Radio Free Asia, 6 
March 11; Uyghur Human Rights Project, ``A City Ruled by Fear and 
Silence: Urumchi, Two Years On,'' 5 July 11, 8.
    \51\ ``China Handling July 5 Cases in Urgent Manner Within Court 
System'' [Xitay, sot mehkimisi saheside 5-iyul delolirini jiddiy bir 
terep qilmaqta], Radio Free Asia, 22 September 10.
    \52\ Han Xiaoyi, ``Xinjiang Last Year Completed Trials in 376 Cases 
of Endangering State Security Crimes'' [Xinjiang qunian shenjie weihai 
guojia anquan fanzui anjian 376 jian], People's Daily, 16 January 11. 
For analysis and comparison with figures from previous years, see 
information that follows within text as well as ``Number of State 
Security Cases Tried in Xinjiang Decreases in 2010; Number of Longer 
Prison Sentences Increases,'' Congressional-Executive Commission on 
China, 3 February 11.
    \53\ Han Xiaoyi, ``Xinjiang Last Year Completed Trials in 376 Cases 
of Endangering State Security Crimes'' [Xinjiang qunian shenjie weihai 
guojia anquan fanzui anjian 376 jian], People's Daily, 16 January 11; 
Cao Zhiheng and Wang Dalin, ``Xinjiang Completed Trials Last Year in 
437 Cases of Endangering State Security'' [Xinjiang qunian shenjie 
weihai guojia anquan fanzui anjian 437 qi], Xinhua, 15 January 10.
    \54\ In 2008, courts completed 268 cases of endangering state 
security. ``Xinjiang Courts in Total Complete Investigation of 268 
Endangering State Security Cases'' [Xinjiang fayuan gong shenjie weihai 
guojia anquan fanzui anjian 268 qi], Xinhua, 10 January 09. Between 
2003 and 2007, the XUAR court system had accepted an average of roughly 
150 ESS cases per year. The figure refers to cases accepted (shouli) 
rather than trials completed (shenjie), but suggests a lower number of 
completed ESS trials before 2008 and subsequent years. Tian Yu, ``Work 
Regarding Courts Nationwide Assisting Xinjiang Courts Is Launched'' 
[Quanguo fayuan duikou zhiyuan xinjiang fayuan gongzuo qidong], Xinhua, 
14 August 07. See also analysis in ``State Security Cases From Xinjiang 
Appear To Surge in 2008,'' CECC China Human Rights and Rule of Law 
Update, No. 1, 2009, 3.
    \55\ Han Xiaoyi, ``Xinjiang Last Year Completed Trials in 376 Cases 
of Endangering State Security Crimes'' [Xinjiang qunian shenjie weihai 
guojia anquan fanzui anjian 376 jian], People's Daily, 16 January 11.
    \56\ See further analysis in ``Number of State Security Cases Tried 
in Xinjiang Decreases in 2010; Number of Longer Prison Sentences 
Increases,'' Congressional-Executive Commission on China, 3 February 
11.
    \57\ See CECC, 2010 Annual Report, 10 October 10, 206-7, and the 
Commission's Political Prisoner Database, records 2009-00448, 2009-
00449, 2010-00106, 2010-00238, and 2010-00253, for more information on 
these cases.
    \58\ For information on the regulations, see CECC, 2010 Annual 
Report, 10 October 10, 205, citing Xinjiang Uyghur Autonomous Region 
Informatization Promotion Regulation [Xinjiang weiwu'er zizhiqu 
xinxihua cujin tiaoli], issued 25 September 09, effective 1 December 
09, art. 40; Xinjiang Uyghur Autonomous Region Regulation on Ethnic 
Unity Education [Xinjiang weiwu'er zizhiqu minzu tuanjie jiaoyu 
tiaoli], issued 29 December 09, effective 1 February 10; Xinjiang 
Uyghur Autonomous Region Regulation on the Comprehensive Management of 
Social Order [Xinjiang weiwu'er zizhiqu shehui zhi'an zonghe zhili 
tiaoli], issued 21 January 94, amended 11 December 97, revised 29 
December 09, effective 1 February 10, art. 25.
    \59\ ``Uyghur Journalist Handed Life Term,'' Radio Free Asia, 21 
December 10; ``Translator and Reporter Muhemmetjan Abdulla Known To 
Have Been Sentenced to Life in Prison'' [Terjiman we muxbir muhemmetjan 
abdullaning muddetsiz qamaqqa hokum qilinghanliqi melum bolmaqta], 
Radio Free Asia, 20 December 10.
    \60\ ``Uyghur Historian Given 7 Years,'' Radio Free Asia, 6 March 
11; World Uyghur Congress, ``World Uyghur Congress Condemns 15-Year 
Sentence Handed Down to Uyghur Journalist and Web site Editor Gheyret 
Niyaz,'' 24 July 10.
    \61\ See CECC, 2010 Annual Report, 10 October 10, 206-7, and the 
Commission's Political Prisoner Database, records 2009-00448, 2009-
00449, 2010-00106, 2010-00238, and 2010-00253, for more information on 
these cases.
    \62\ ``Dissident Kazakh Writer Dies in Western China,'' Radio Free 
Europe/Radio Liberty, 15 February 11; See also the Commission's 
Political Prisoner Database, record 2011-00173, on Kajikhumar Shabdan 
(citing Dui Hua Foundation information based on official Chinese 
sources).
    \63\ ``Travel Ban Extends to Family,'' Radio Free Asia, 10 February 
11; ``Uyghur Scholar, Family Held,'' Radio Free Asia, 15 December 10.
    \64\ Xinjiang Press and Publication Bureau, ``Raising `Eight Points 
of Work' for Making Focused Efforts in Latter Half of Year'' [Tichu 
xiabannian zhongdian zhuahao ``ba xiang gongzuo''], 5 July 10.
    \65\ Shi Qiaomei et al., ``Our Region Convenes `Sweep Away 
Pornography and Strike Down Illegal Publications' Work Video 
Teleconference'' [Wo qu zhaokai ``saohuang dafei'' gongzuo dianshi 
dianhuahui], Xinjiang Daily, 15 January 11.
    \66\ Yang Chen, Xinjiang Uyghur Autonomous Region Transportation 
Department, `` `Turfan Transportation Management Bureau' Tracks Down 87 
Illegal Religious Publications'' [``Tulufan yunguanju'' chahuo 87 ben 
feifa zongjiao chubanwu], 22 February 11; Shi Qiaomei et al., ``Our 
Region Convenes `Sweep Away Pornography and Strike Down Illegal 
Publications' Work Video Teleconference'' [Wo qu zhaokai ``saohuang 
dafei'' gongzuo dianshi dianhuahui], Xinjiang Daily, 15 January 11.
    \67\ See, e.g., ``Urumqi Announces `10 Big Sweep Away Pornography, 
Strike Down Illegal Publications Cases' '' [Wulumuqi gongbu 2010 nian 
``saohuang dafei shida anjian''], Tianshan Net, 10 February 11; 
``Directly Administered Areas in Ili Prefecture Stress Strengthening 
`Sweep Away Pornography, Strike Down Illegal Publications' and Cultural 
Market Supervision Work During `New Year' and `Chinese New Year' 
Period'' [Yili zhouzhi zhuzhong jiaqiang ``yuandan'' ``chunjie'' qijian 
``saohuang dafei'' he wenhua shichang jianguan gongzuo], Xinjiang 
Culture Net, 11 February 11; Bortala Mongol Autonomous Prefecture 
People's Government, ``Bortala Prefecture Enlarges Strength of 
Inspections, Ensures `Big Sweep Away Pornography, Strike Down Illegal 
Publications' Work Gets Down to the Substance'' [Bo zhou jiada jiancha 
lidu quebao ``saohuang dafei'' gongzuo luo dao shichu], 17 February 11; 
Fuyun County People's Government, ``Turaxun Township, Fuyun County, 
Vigorously Launches Activity To Investigate Illegal Religious 
Publications'' [Fuyun xian tu'erhong xiang dali kaizhan qingcha feifa 
zongjiao chubanwu huodong], reprinted in E'erqisi Net, 14 January 11. 
See analysis of these items in ``Xinjiang Authorities Target Religious 
and Political Publications in Censorship Campaigns,'' Congressional-
Executive Commission on China, 31 March 11.
    \68\ ``Crackdown Launched in Xinjiang,'' Radio Free Asia, 3 
December 10; ``Uyghurs Targeted Amidst Reform Call,'' Radio Free Asia, 
28 February 11.
    \69\ Cheng Lixin, ``Autonomous Regional Party Committee Standing 
Committee (Enlarged) Meeting Stresses Raising Recognition, Synthesizing 
Measures and Policies, and Ensuring Stability'' [Zizhiqu dangwei 
changwei (kuoda) huiyi qiangdiao tigao renshi zonghe shice quebao 
wending], Xinjiang Daily, 8 December 10.
    \70\ ``Zhang Chunxian: Use `5 Resolutes' To Propel Development and 
Stability'' [Zhang chunxian: yi ``wuge jiandingbuyi'' tuijin fazhan he 
wending], Tianshan Net, 7 August 11.
    \71\ Chen Zehua, ``Our Region Launches Special Operation To `Strike 
Hard Against Violent Terrorist Crimes' '' [Wo qu kaizhan ``yanli daji 
baoli kongbu fanzui'' zhuanxiang xingdong], Xinjiang Legal Daily, 
reprinted in Xinjiang Peace Net, 15 August 11.
    \72\ See examples that follow, as well as analysis in ``Authorities 
in Xinjiang Use Pledge System To Exert Control Over Village Life,'' 
CECC China Human Rights and Rule of Law Update, No. 9, 10 December 10, 
3.
    \73\ Autonomous Region Definitions Concerning 23 Kinds of Illegal 
Religious Activity [Zizhiqu guanyu 23 zhong feifa zongjiao huodong de 
jieding] (undated, reprinted in, e.g., Chinggil County People's 
Government, 25 February 08), Nos. 3, 4, 5, 20. For mention of the 
document from the past year, see, e.g., Yengisar Ethnic and Religious 
Affairs Bureau, ``Penetrate the Countryside for Grand Propaganda and 
Explanations, Ethnic Unity Enters People's Hearts, Yengisar County 
Ethnic and Religious Affairs Bureau Launches `Grand Propagandizing and 
Explanation' Activity'' [Shenru xiangcun da xuanjiang minzu tuanjie jin 
minxin, yingjisha xian minzongju kaizhan ``da xuanjiang'' huodong], 
reprinted in Yengisar County People's Government, 21 March 11; Qaramay 
Dushanzi District Number 1 Middle School, ``2011 Plan for Launching 
`Year of Studying Law' Activity'' [2011 nian kaizhan ``xuefa nian'' 
huodong jihua], 11 March 11.
    \74\ See Xinjiang Uyghur Autonomous Region Regulation on the 
Protection of Minors [Xinjiang weiwu'er zizhiqu weichengnianren baohu 
tiaoli], issued 25 September 09, effective 1 December 09, arts. 34, 53, 
and analysis in ``New Regulation in Xinjiang Appears To Expand Controls 
Over Children's Religious Freedom (Includes Update),'' CECC China Human 
Rights and Rule of Law Update, No. 1, 8 January 10, 2 and ``Draft 
Regulation in Xinjiang Could Strengthen Legal Prohibitions Over 
Children's Freedom of Religion,'' CECC China Human Rights and Rule of 
Law Update, No. 4, 2009, 3.
    \75\ See Village Pledge System in this section for more information 
and ``Authorities in Xinjiang Use Pledge System To Exert Control Over 
Village Life,'' CECC China Human Rights and Rule of Law Update, No. 9, 
10 December 10, 3.
    \76\ Qiongbola Township People's Government, ``Qiongbola Township 
Blazes Trails in Model for Religious Management, Drives Ahead With New 
Ideas in Social Management'' [Qiongbola xiang chuangxin zongjiao guanli 
moshi, tuijin shehui guanli chuangxin], reprinted in Qapqal Xibe 
Autonomous County People's Government, 7 January 11.
    \77\ Toutunhe District People's Political Consultative Office, 
``Inspection Report Concerning Toutunhe District's Religious 
Personnel's Lifestyle Situation and Conditions for Playing a Positive 
Role in Strengthening Ethnic Unity and Safeguarding Stability'' [Guanyu 
dui toutunhe qu zongjiao renshi zai jiaqiang minzu tuanjie, weihu 
wending fangmian fahui zuoyong qingkuang ji shenghuo zhuangkuang de 
shicha baogao], reprinted in Toutunhe District People's Government, 2 
September 10.
    \78\ See, e.g., Jiashi County People's Government, ``Jiashi County 
Launches Food Hygiene and Safety Education and Training Work During the 
`Two Holidays' Period'' [Jiashi xian kaizhan ``liang jie'' qijian 
shipin weisheng anquan jiaoyu peixun gongzuo], 28 July 11; Bortala 
Mongol Autonomous Prefecture People's Government, ``Bortala 
Municipality Takes Four Measures To Soundly Launch Work on Management 
of Religious Affairs'' [Bole shi si cuo bingju zhashi kaizhan zongjiao 
shiwu guanli gongzuo], 20 July 11; Ruoqiang County People's Government, 
``Washsheri Township Convenes Forum Regarding Stability Work During 
Ramadan'' [Washixia xiang zhaokai guanyu zhaiyue qijian weiwen gongzuo 
zuotanhui], 29 July 11; Qiemo County People's Government, ``Tatirang 
Township Adopts Forum Method To Do Good Job of Religion Work'' 
[Tatirang xiang caiqu zuotanhui fangshi zuohao zongjiao gongzuo], 5 
August 11; ``Situation All-Around Tense in Uyghur Area During Ramadan 
Period'' [Ramzan mezgilide uyghur eli weziyiti omumyulu jiddiyleshken], 
Radio Free Asia, 28 July 11. For additional information on controls 
over Ramadan in recent years, see, e.g., ``Authorities Continue To 
Restrict Ramadan Observance in Xinjiang,'' CECC China Human Rights and 
Rule of Law Update, No. 8, 9 November 10, 3, and ``Religious Repression 
in Xinjiang Continues During Ramadan,'' CECC China Human Rights and 
Rule of Law Update, January 2008, 3.
    \79\ ``Father and Son Religious Personages Detained on Suspicion in 
Shihezi Are Given 3-Year Sentences'' [Shixenzide guman bilen tutqun 
qilinghan dada-bala diniy zatlargha 3 yilliqtin qamaq jazasi berilgen], 
Radio Free Asia, 22 April 11.
    \80\ For information on earlier campaigns, see ``Xinjiang 
Authorities Target Beards, Veils in Campaigns To Tighten Control Over 
Religion,'' CECC China Human Rights and Rule of Law Update, No. 8, 9 
November 10, 4-5, and ``Xinjiang Authorities Tighten Controls Over 
Muslim Women,'' CECC China Human Rights and Rule of Law Update, No. 5, 
4 June 10, 2.
    \81\ See, e.g., All-China Women's Federation, ``10 Measures From 
the Xinjiang Uyghur Autonomous Region Women's Federation Let Women of 
All Ethnicities All Reap Benefits'' [Xinjiang zizhiqu fulian shi xiang 
jucuo rang gezu funu pu shouhui], 7 March 11; Hoten District Women's 
Federation, ``Hoten District Women's Federation 2011 Work 
Arrangements'' [Hetian diqu fulian 2011 nian gongzuo anpai], reprinted 
in Hoten District People's Government, 27 January 11; Luntai County 
Women's Federation, ``Implementation Plan for Luntai County Women's 
Federation System's Launching of `Creating Advancement, Striving for 
Excellence' Activities'' [Guanyu zai luntai xian fulian xitong zhong 
kaizhan chuangxian zhengyou huodong de shishi fang'an], reprinted in 
Luntai County People's Government, 7 September 10; Turpan Municipality 
Leading Group Office for Creating Advancement, Striving for Excellence 
Activities, ``Implementation Plan for Turpan City Women's Federation 
System and Women of All Ethnicities' Deeply Launching of Creating 
Advancement, Striving for Excellence Activities'' [Guanyu zai tulufan 
shi fulian xitong he gezu funu zhong shenru kaizhan chuangxian zhengyou 
huodong de shishi fang'an], Turpan Party Construction Net, 6 January 
11.
    \82\ Hongqiao Residential District Office, ``Hongqiao Residential 
District Work System Two'' [Hongqiao jiedao gongzuo zhidu er], 
reprinted in Usu Municipal People's Government, 18 September 10.
    \83\ Paixianbaibazha Township People's Government, ``Implementation 
Plan for Paixianbaibazha Township's Launching of Special Rectification 
Operation To Attack Illegal Religious Activities'' 
[Paixianbaibazhaxiang kaizhan daji feifa zongjiao huodong zhuanxiang 
zhengzhi xingdong shishi fang'an], reprinted in Xinhe County People's 
Government, 27 November 10.
    \84\ Bortala Mongol Autonomous Prefecture Women's Federation, 
``Circular Concerning Printing and Distributing the `Autonomous 
Prefecture 2011 Women's Federation Propaganda Work Points' '' [Guanyu 
yinfa ``zizhizhou fulian 2011 nian xuanchuan gongzuo yaodian'' de 
tongzhi], 30 March 11; Bortala Mongol Autonomous Prefecture Women's 
Federation, ``Circular Concerning Printing and Distributing the 
`Autonomous Prefecture 2011 Women's Federation Propaganda Work Points' 
'' [Guanyu yinfa ``zizhizhou fulian 2011 nian xuanchuan gongzuo 
yaodian'' de tong zhi], 2 February 11; Paixianbaibazha Township 
People's Government, ``Implementation Plan for Paixianbaibazha 
Township's Launching of Special Rectification Operation To Attack 
Illegal Religious Activities'' [Paixianbaibazhaxiang kaizhan daji feifa 
zongjiao huodong zhuanxiang zhengzhi xingdong shishi fang'an], 
reprinted in Xinhe County People's Government, 27 November 10. For more 
information on oversight in recent years, see ``Xinjiang Authorities 
Train, Seek To Regulate Muslim Women Religious Figures,'' CECC China 
Human Rights and Rule of Law Update, No. 4, 2009, 2, and ``Xinjiang 
Authorities Tighten Controls Over Muslim Women,'' CECC China Human 
Rights and Rule of Law Update, No. 5, 4 June 10, 2.
    \85\ In Chinese law, see, e.g., PRC Constitution, arts. 4, 121, and 
Regional Ethnic Autonomy Law (REAL), issued 31 May 84, effective 1 
October 84, amended 28 February 01, arts. 10, 21, 37. 2005 Implementing 
Provisions for the REAL affirm the freedom to use and develop minority 
languages, but also place emphasis on the use of Mandarin by promoting 
``bilingual'' education and bilingual teaching staff. State Council 
Provisions on Implementing the PRC Regional Ethnic Autonomy Law 
[Guowuyuan shishi ``zhonghua renmin gongheguo minzu quyu zizhifa'' 
ruogan guiding], issued 19 May 05, effective 31 May 05, art. 22. In 
international law, see, e.g., International Covenant on Civil and 
Political Rights (ICCPR), adopted by UN General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 23 March 76, arts. 26, 
27.
    \86\ For more information on goals set following the forum, see 
CECC, 2010 Annual Report, 10 October 10, 208.
    \87\ ``Xinjiang Uyghur Autonomous Region Mid- to Long-Term 
Education Reform and Development Plan (2010-2020)'' [Xinjiang weiwu'er 
zizhiqu zhongchangqi jiaoyu gaige he fazhan guihua gangyao (2010-2020 
nian)], issued 21 January 11, item 14; Jing Bo, ``Xinjiang Promulgates 
`Outline of Education Plan' '' [Xinjiang gongbu ``jiaoyu guihua 
gangyao''], Tianshan Net, 22 January 11 (noting date of issue of the 
reform plan). For more information, see analysis in ``Xinjiang 
Authorities Accelerate Promotion of Mandarin-Focused Bilingual 
Education,'' Congressional-Executive Commission on China, 10 May 11.
    \88\ Ibid.
    \89\ ``Xinjiang Uyghur Autonomous Region Mid- to Long-Term 
Education Reform and Development Plan (2010-2020)'' [Xinjiang weiwu'er 
zizhiqu zhongchangqi jiaoyu gaige he fazhan guihua gangyao (2010-2020 
nian)], issued 21 January 11, item 14; CECC, 2008 Annual Report, 31 
October 08, 178-79.
    \90\ ``Xinjiang Uyghur Autonomous Region Mid- to Long-Term 
Education Reform and Development Plan (2010-2020)'' [Xinjiang weiwu'er 
zizhiqu zhongchangqi jiaoyu gaige he fazhan guihua gangyao (2010-2020 
nian)], issued 21 January 11, item 8.
    \91\ Ibid., item 15.
    \92\ ``Uyghur-Language Classes Preserved at Middle School in 
Dadamtu Township, Ghulja'' [Ghulja dadamtu yeziliq ottura mektipide 
uyghur tilidiki siniplar saqlinip qaldi], Radio Free Asia, 1 December 
10. For additional information on dissatisfaction over bilingual 
education in recent years, see Uyghur Human Rights Project, ``Uyghur 
Language Under Attack: The Myth of `Bilingual' Education in the 
People's Republic of China,'' 24 July 07.
    \93\ Jing Bo, ``Xinjiang Publicly Recruits 5109 Elementary and 
Secondary School Bilingual Teachers'' [Xinjiang gongkai zhaopin 5109 
ming zhongxiaoxue shuangyu jiaoshi], Tianshan Net, 10 October 10. For 
more information, see analysis in ``Xinjiang Authorities Accelerate 
Promotion of Mandarin-Focused Bilingual Education,'' Congressional-
Executive Commission on China, 10 May 11.
    \94\ Li Min, ``Xinjiang Publicly Recruits Over 10,000 Elementary 
and Secondary School Teachers'' [Xinjiang 2011 nian mianxiang shehui 
zhaopin 1 wan yu ming zhongxiaoxue jiaoshi], Tianshan Net, 30 May 11; 
``Xinjiang To Recruit 9,200 Bilingual Teachers,'' Xinhua, 31 May 11.
    \95\ See, e.g., Fan Yingli and Aynur, ``Zhejiang Aid to Xinjiang 
Will Train Over 5000 Ethnic Minority `Bilingual' Teachers Within 5 
Years'' [Zhejiang yuanjiang wunian nei jiang peixun 5000 yu ming 
shaoshu minzu ``shuangyu'' jiaoshi], Xinhua, reprinted in Tianshan Net, 
16 November 10; Xinjiang Education Department, ``The Four Provinces and 
Municipalities of Beijing, Tianjin, Shanghai, and Jiangsu Hold 
Cooperation Meeting in Nanjing on Work for Training Backbone Ethnic 
Minority Bilingual Teachers'' [Jing jin hu su si shengshi zai nanjing 
zhaokai xinjiang shaoshu minzu shuangyu gugan jiaoshi peixun gongzuo 
xiezuo hui], 9 December 10.
    \96\ ``Laid Off Profs Reject Deal,'' Radio Free Asia, 27 September 
11; ``Teachers Fired Over Mandarin Ability,'' Radio Free Asia, 23 
September 11; ``Two Female Teachers in Qaghliq Spent 35 Days in Prison 
for Petitioning to Higher Levels'' [Qaghiliqta ikki neper ayal 
oqutquchi yuqirigha erz qilghanliqi uchun 35 kun qamaqta yatqan], Radio 
Free Asia, 4 April 11. See also ``Cuts Expected for Uyghur Teachers,'' 
Radio Free Asia, 16 November 10; ``Uyghur Teachers in Toqsun Again 
Under Harsh Pressure'' [Toqsundiki uyghur oqutquchilar yenimu qattiq 
besim astida], Radio Free Asia, 9 December 10.
    \97\ Xinjiang Education Department, Circular Concerning Completing 
Pilot Work To Offer Ethnic Minority Language Arts Classes in Compulsory 
Education-Level Schools Teaching in Mandarin [Guanyu zuohao hanyu 
shouke yiwu jiaoyu jieduan xuexiao kaishe minzu yuwen kecheng shidian 
gongzuo de tongzhi], issued 30 August 10.
    \98\ Xinjiang Education Department, Guiding Opinion on Autonomous 
Region's Work To Strengthen Training in Minority Languages for Newly 
Hired Preschool Teachers Who Are Native Mandarin Speakers [Zizhiqu 
xinpin muyu wei hanyu de xueqian shuangyu jiaoshi min yuyan qianghua 
peixun gongzuo zhidao yijian], issued 30 August 10.
    \99\ See CECC, 2010 Annual Report, 10 October 10, 209-10, for 
information on reward programs in earlier years.
    \100\ ``Rural Special Award System in 3 Southern Xinjiang Districts 
and Prefecture Is Again Enlarged'' [Xinjiang nanjiang san dizhou 
nongcun teshu jiangli zhengce zaidu kuomian], Tianshan Net, 17 March 
11.
    \101\ Zepu County Population and Family Planning Committee, ``Rural 
Family Planning Household Special Award System for 3 Xinjiang Districts 
and Prefecture'' [Nanjiang san dizhou nongcun jihua shengyu jiating 
teshu jiangli zhidu], reprinted in Zepu Net, 4 September 08.
    \102\ ``National Population and Family Planning Commission Starts 
Series of Operations To Support Xinjiang'' [Guojia renkou jishengwei 
qidong zhiyuan xinjiang xilie xingdong], China Population News, 
reprinted in National Population and Family Planning Commission, 3 
November 09. For additional analysis, see ``Authorities Begin New 
Incentive Initiative To Continue Population Control in Xinjiang,'' CECC 
China Human Rights and Rule of Law Update, No. 1, 8 January 10, 2.
    \103\ See, e.g., Li Yanmin, ``3.21 Million From State Goes to 2252 
Ethnic Minority Households in Xinjiang's Altay'' [Guojia 321 wan huiji 
xinjiang aletai 2252 hu shaoshu minzu jiating], Xinhua, 19 November 10; 
Zhang Yanhong and Wang Yizhi, ``Nileke County Townships and Towns 
Launch Family Planning Special Awards-Granting Ceremony'' [Nileke xian 
xiangzhen fafang jihua shengyu jiating teshu jiangjin fafang yishi], 
Xinjiang News Net, 1 December 10; ``Seman Towsnhip, Kashgar, Convenes 
[Meeting] for Farmers and Herders To Receive Family Planning 
`Certificates of Honor' '' [Kashi shi seman xiang zhaokai nongmumin 
lingqu jihua shengyu ``guangrongzheng''], Kashgar Today, 8 April 11.
    \104\ For a broad overview and analysis of the program, see 
``Authorities in Xinjiang Use Pledge System To Exert Control Over 
Village Life,'' CECC China Human Rights and Rule of Law Update, No. 9, 
10 December 10, 3.
    \105\ ``Seek Realistic Results, Blaze Trails, Form Great 
Achievements, and Cure and Exhibit New Look'' [Qiushi chuangxin jie 
shuoguo puzhi bingju zhan xinmao], Fazhi Xinjiang, 25 August 10.
    \106\ See analysis in ``Authorities in Xinjiang Use Pledge System 
To Exert Control Over Village Life,'' CECC China Human Rights and Rule 
of Law Update, No. 9, 10 December 10, 3.
    \107\ For general information, see, e.g., ``Seek Realistic Results, 
Blaze Trails, Form Great Achievements, and Cure and Exhibit New Look'' 
[Qiushi chuangxin jie shuoguo puzhi bingju zhan xinmao], Fazhi 
Xinjiang, 25 August 10; Du Jianxi, ``Take Implementing `Village Rules' 
as the Handhold, Promote Firm Progress for Work To Have `Rule of Law' 
Enter the Countryside'' [Yi luoshi ``cungui minyue'' wei ``zhuashou'' 
tuidong ``fazhi jin xiangcun'' gongzuo zhashi jinzhan], Fazhi Xinjiang, 
6 April 08. For analysis see ``Authorities in Xinjiang Use Pledge 
System To Exert Control Over Village Life,'' CECC China Human Rights 
and Rule of Law Update; No. 9, 10 December 10, 3.
    \108\ PRC Organic Law of the Villagers' Committees [Zhonghua renmin 
gongheguo cunmin weiyuanhui zuzhifa], issued and effective 4 November 
98, amended 28 October 10, art. 27.
    \109\ See, e.g., analysis in ``Authorities in Xinjiang Use Pledge 
System To Exert Control Over Village Life,'' CECC China Human Rights 
and Rule of Law Update, No. 9, 10 December 10, 3.
    \110\ See Du Jianxi, ``Take Implementing `Village Rules' as the 
Handhold, Promote Firm Progress for Work To Have `Rule of Law' Enter 
the Countryside'' [Yi luoshi ``cungui minyue'' wei ``zhuashou'' tuidong 
``fazhi jin xiangcun'' gongzuo zhashi jinzhan], Fazhi Xinjiang, 6 April 
08. For analysis see ``Authorities in Xinjiang Use Pledge System To 
Exert Control Over Village Life,'' CECC China Human Rights and Rule of 
Law Update, No. 9, 10 December 10, 3.
    \111\ ``Promises To Respect the Rules in Hoten District, Xinjiang: 
Villagers Manage Themselves (1)'' [Xinjiang hetian diqu shouyue 
chengnuo: cunmin ziji guan ziji (1)], Legal Daily, reprinted in China 
Finance Net, 8 April 08.
    \112\ Hoten District Leading Group on Governing District in 
Accordance to Law et al., Opinion Concerning Implementation of 
Promotion of Village ``Codes of Conduct'' in Rural Areas in 2007, To 
Govern Villages in Accordance With Law'' [Guanyu 2007 nian zai nongcun 
tuixing ``cungui minyue'' yifa zhicun de shishi yijian], 22 January 07, 
Item 1(1).
    \113\ See, e.g., PRC Constitution, art. 4; PRC Regional Ethnic 
Autonomy Law [Zhonghua renmin gongheguo minzu quyu zizhifa], issued 31 
May 84, effective 1 October 84, amended 28 February 01, art. 9; PRC 
Labor Law [Zhonghua renmin gongheguo laodongfa], issued 5 July 94, 
effective 1 January 95, art. 12; PRC Employment Promotion Law [Zhonghua 
renmin gongheguo jiuye cujinfa], issued 30 August 07, effective 1 
January 08, art. 28. See also legal analysis in ``Governments in 
Xinjiang Continue To Sponsor, Sanction Job Recruitment That 
Discriminates Against Ethnic Minorities,'' CECC China Human Rights and 
Rule of Law Update, No. 2, 11 March 09, 3.
    \114\ ``Xinjiang Uyghur Autonomous Region Occupational Disease 
Hospital Recruiting Information'' [Xinjiang wewu'er zizhiqu zhiyebing 
yiyuan zhaopin xinxi], reprinted in Graduate School of Lanzhou 
University, 26 November 10. See also ``Job Discrimination Against 
Ethnic Minorities Continues in Xinjiang,'' Congressional-Executive 
Commission on China, 31 March 11.
    \115\ ``List of Civil Servant and Staff Positions for 2010 Xinjiang 
Uyghur Autonomous Region Public Recruiting Through Exam for County-
Level Discipline Inspection and Supervision Organs'' [2010 nian 
xinjiang weiwu'er zizhiqu mianxiang shehui gongkai kaolu xianji jijian 
jiancha jiguan gongwuyuan, gongzuo renyuan zhiweibiao], reprinted in 
Xinjiang Human Resources Testing Center, 16 September 10.
    \116\ Bingtuan Personnel Bureau, ``Summary of Posts for 2011 
Xinjiang Production and Construction Corps Public Recruiting of 
Functionaries'' [2011 xinjiang shengchan jianshe bingtuan mianxiang 
shehui zhaolu gongwuyuan zhiwei huizongbiao], reprinted in Bingtuan 
Personnel Testing Authority, 6 August 11. For information on hiring in 
previous years, see Congressional-Executive Commission on China, 2010 
Annual Report, 10 October 10, 211; Congressional-Executive Commission 
on China, 2009 Annual Report, 10 October 09, 264; Congressional-
Executive Commission on China, 2007 Annual Report, 10 October 07, 107.
    \117\ Autonomous Region Party Committee and Autonomous Region 
People's Government Opinion Concerning Employment Promotion Work 
[Zizhiqu dangwei, zizhiqu renmin zhengfu guanyu cujin jiuye gongzuo de 
yijian], issued 11 September 09, art. 2(2).
    \118\ Ibid., art. 1(5).
    \119\ Congressional-Executive Commission on China searches for 
information did not find specific reports from the past year on 
localities taking steps to adhere to the opinion and promote the hiring 
of ethnic minorities.
    \120\ Opinion of Five Departments Including Autonomous Region 
Organization Department Concerning Organizing and Implementing ``Plan 
for Ethnic Minority Standard College Graduates To Go to Aid-Xinjiang 
Provinces and Municipalities for Training'' [Zizhiqu dangwei zuzhibu 
deng wu bumen guanyu zuzhi shishi ``shaoshu minzu putong gaoxiao 
biyesheng fu duikou yuanjiang shengshi peiyang jihua'' de yijian], 9 
January 11, items 1, 2. See analysis in ``Job Discrimination Against 
Ethnic Minorities Continues in Xinjiang,'' Congressional-Executive 
Commission on China, 31 March 11.
    \121\ Opinion of Five Departments Including Autonomous Region 
Organization Department Concerning Organizing and Implementing ``Plan 
for Ethnic Minority Standard College Graduates To Go to Aid-Xinjiang 
Provinces and Municipalities for Training'' [Zizhiqu dangwei zuzhibu 
deng wu bumen guanyu zuzhi shishi ``shaoshu minzu putong gaoxiao 
biyesheng fu duikou yuanjiang shengshi peiyang jihua'' de yijian], 9 
January 11, item 5(2) (referring to trainees taking up set posts); He 
Jun and Mao Yong, ``Xinjiang Starts `Plan for Ethnic Minority Standard 
College Graduates To Go to Aid-Xinjiang Provinces and Municipalities 
for Training' '' [Xinjiang qidong ``shaoshu minzu putong gaoxiao 
biyesheng fu duikou yuanjiang shengshi peiyang jihua''], Xinhua, 25 
March 11.
    \122\ Opinion of Five Departments Including Autonomous Region 
Organization Department Concerning Organizing and Implementing ``Plan 
for Ethnic Minority Standard College Graduates To Go to Aid-Xinjiang 
Provinces and Municipalities for Training'' [Zizhiqu dangwei zuzhibu 
deng wu bumen guanyu zuzhi shishi ``shaoshu minzu putong gaoxiao 
biyesheng fu duikou yuanjiang shengshi peiyang jihua'' de yijian], 9 
January 11, item 1.
    \123\ CECC, 2008 Annual Report, 31 October 08, 179; CECC, 2009 
Annual Report, 10 October 09, 264-66; CECC 2010 Annual Report, 10 
October 10, 211-12.
    \124\ See, e.g., ``Nuer Bekri Refutes the Allegation That Women of 
Uyghur Ethnic Group `Are Forced To Work in the Interior of the 
Country,' '' Xinhua, 18 July 09 (Open Source Center, 20 July 09); Zhang 
Jie, ``Fifth: Realm for Labor Export Is Broad'' [Zhi wu: laowu shuchu 
tiandi kuan], Xinjiang Daily, 21 September 10; Kashgar District 
People's Government, ``Earned Income in Jiashi From 7 Years of Labor 
Export Exceeds 1 Billion'' [Jiashi 7 nian laowu shuchu chuangshou chao 
10 yi], 13 May 11; Mao Yong and Zhao Chunhui, ``Isolated Xinjiang 
Ethnic Minority Rural Workers March Toward Openness'' [Xinjiang shaoshu 
minzu nongmingong cong fengbi maixiang kaifang], Xinhua, reprinted in 
China Ethnicities News, 25 January 10.
    \125\ Zhang Jie, ``Fifth: Realm for Labor Export Is Broad'' [Zhi 
wu: laowu shuchu tiandi kuan], Xinjiang Daily, 21 September 10.
    \126\ Ibid.
    \127\ ``Strive To Stand on One's Feet, Establish Good Image for 
People From Xinjiang-Third Sidelight in Autonomous Region Party and 
Government Representatives Delegation Visit to Aid-Xinjiang Provinces 
and Municipalities'' [Ziqiang zili shuli xinjiangren lianghao xingxiang 
zizhiqu dangzheng daibiaotuan zoufang duikou yuanjiang shengshi ceji 
san], Xinjiang TV, reprinted in Xinhua, 4 May 11.
    \128\ See, e.g., ``Xinjiang Lacks Workers, Provinces [Elsewhere in 
China] With Large Labor Export Suffer Hardships'' [Xinjiang quegong 
neidi laowu shuchu da sheng fannan], Yaxin, reprinted in Sina, 18 
February 11; ``Will Students in Nine Years of Compulsory Education 
Still Pick Cotton? '' [Jiunian yiwu jiaoyu xuesheng hai zai shi mianhua 
ma?], reprinted in Xinhe County People's Government, 18 September 10; 
``Second Agricultural Division 19th Regiment's Legal Office Strengthens 
Legal and Safety Education During Period Students Pick Cotton'' [Nong 
er shi ershijiu tuan sifasuo jiaqiang xuesheng shi mian qijian fazhi 
anquan jiaoyu], Xinjiang Agricultural Information Portal, 4 October 10.
    \129\ The International Labor Organization's Convention 138, which 
China has ratified, sets the minimum age for child labor at 15, with 
limited exceptions. Although the Convention excludes work done as part 
of general, vocational, or technical education, such work must be an 
``integral part'' of a course of study or training course. Article 15 
of China's Labor Law forbids the employment of minors under 16. Within 
this legal framework prohibiting child labor, Article 13 of the 
Provisions on Prohibiting the Use of Child Labor and Article 58 of the 
Education Law together allow for ``education practice labor'' and work-
study programs for children under the age of 16, but such programs must 
not harm children's health or safety or adversely affect their normal 
studies. A nationwide regulation on work-study programs for elementary 
and secondary school students outlines the general terms of such 
programs, which it says are meant to cultivate morals, contribute to 
production outputs, and improve conditions for schools. ILO Convention 
(No. 138) Concerning Minimum Age for Admission to Employment, 26 June 
73, arts. 2, 6; PRC Labor Law [Zhonghua renmin heguo laodongfa], issued 
5 July 94, effective 1 January 95, art. 15; Provisions on Prohibiting 
the Use of Child Labor [Jinzhi shiyong tonggong guiding], issued 1 
October 02, effective 1 December 02, art. 13; PRC Education Law 
[Zhonghua renmin gongheguo jiaoyufa], issued 18 March 95, effective 1 
September 95, art. 58. Also see generally Regulation Regarding 
Temporary Work on Work-Study Labor for Secondary and Elementary Schools 
[Quanguo zhongxiaoxue qingongjianxue zanxing gongzuo tiaoli], issued 
and effective 20 February 83, arts. 1, 3.
    \130\ See Opinion on Strengthening the Management of Secondary and 
Elementary School Students' Work-Study Service Activities [Guanyu 
jiaqiang zhongxiaoxue qingongjianxue laowu huodong guanli de yijian], 
issued 8 May 06, art. 3, and ``Xinjiang Government Continues 
Controversial `Work-Study' Program,'' CECC China Human Rights and Rule 
of Law Update, November 2006, 11.
    \131\ He Ping, ``Starting This Fall, Xinjiang Students Attending 
Compulsory Education Will Not Pick Cotton Again'' [Jin qiu qi xinjiang 
jiu nian yiwu jiaoyu xuesheng buzai shi mianhua], Tianshan Net, 19 
September 08. See also analysis in ``Xinjiang Work-Study Programs 
Continue; Cotton-Picking Activities Limited,'' CECC China Human Rights 
and Rule of Law Update, December 2008, 4.
    \132\ See, e.g., ``Will Students in Nine Years of Compulsory 
Education Still Pick Cotton? '' [Jiunian yiwu jiaoyu xuesheng hai zai 
shi mianhua ma?], reprinted in Xinhe County People's Government, 18 
September 10; and ``Second Agricultural Division 19th Regiment's Legal 
Office Strengthens Legal and Safety Education During Period Students 
Pick Cotton'' [Nong er shi ershijiu tuan sifasuo jiaqiang xuesheng shi 
mian qijian fazhi anquan jiaoyu], Xinjiang Agricultural Information 
Portal, 4 October 10, cited in ``Underage Students Continue To Pick 
Cotton in Xinjiang Work-Study Program,'' CECC China Human Rights and 
Rule of Law Update, No. 9, 10 December 10, 4.
    \133\ Ibid.
    \134\ For general background on the project, see ``Demolition of 
Kashgar's Old City Draws Concerns Over Cultural Heritage Protection, 
Population Resettlement,'' CECC China Human Rights and Rule of Law 
Update, No. 3, 2009, 2.
    \135\ Pan Ying, ``Old City Transformation Project in Kashgar, 
Xinjiang, Steadily Moves Ahead, City Culture Is Inherited'' [Xinjiang 
kashi laocheng gaizao xiangmu pingwen tuijin chengshi wenhua deyi 
chuancheng], Xinhua, 9 July 11.
    \136\ Cai Muyuan, ``Restoring Old Kashgar for a Safer Future,'' 
China Daily, 26 October 10.
    \137\ Ben Ochieng and Wang Yanan, ``Interview: Inscribed Chinese 
Intangible Elements Have Viability: UNESCO Official,'' Xinhua, 17 
November 10; United Nations Educational, Scientific and Cultural 
Organization, ``Intangible Heritage Lists,'' last visited 20 June 11.
    \138\ United Nations Educational, Scientific and Cultural 
Organization, ``Songs, Dances and Traditional Know-How From 29 
Countries Proposed for Inscription on UNESCO Lists of Intangible 
Heritage,'' 11 September 10.
    \139\ See information on the Chinese government description of the 
meshrep in Rachel Harris, UN Educational, Scientific, and Cultural 
Organization, ``Report on the Examination of Nomination Files No. 00304 
for Inscription on the List of Intangible Cultural Heritage in Need of 
Urgent Safeguarding in 2010,'' November 2010, and Cultural Department 
of Xinjiang Uyghur Autonomous Region, ``Clarification to the Report on 
the Examination of Nomination Files No. 00304 for Inscription on the 
List of Intangible Cultural Heritage in Need of Urgent Safeguarding in 
2010,'' last visited 20 June 11. See also analysis in ``Draft of 
Intangible Cultural Heritage Law Limits Research Activities; Xinjiang 
Case Study Shows Politicization of Heritage (Updated),'' Congressional-
Executive Commission on China, 16 February 11.
    \140\ Jay Dautcher, ``Public Health and Social Pathologies in 
Xinjiang,'' in Xinjiang: China's Muslim Borderland, ed. S. Frederick 
Starr (Armonk, NY: M.E. Sharpe, 2004), 285-86.
    \141\ For more information on the cases, see CECC, 2010 Annual 
Report, 10 October 10, 212-13.
    \142\ Zhou Yingfeng and Cui Qingxin, ``Our Country Busts Major 
Terrorist Group Case, Details on Public Security Bureau Announcement'' 
[Woguo pohuo zhongda kongbu zuzhi an gong'anbu gongbu xiangqing], 
Xinhua, 24 June 10.
    \143\ United Nations High Commissioner for Refugees, ``The 
Exclusion Clauses: Guidelines on Their Application,'' December 1996, 
II(i)(10). See also Monette Zard, ``Exclusion, Terrorism and the 
Refugee Convention,'' Forced Migration Review, June 2002.
    \144\ ``Uyghur Prisoner Denied Medical Care,'' Radio Free Asia, 8 
March 11.
    \145\ Ibid.; ``Laos Deports Seven Uyghurs,'' Radio Free Asia, 15 
December 10; ``Health Status of Prisoner Memtili Rozi, Returned From 
Cambodia, Worries Family'' [Kambodzhadin qayturulghan tutqun memtili 
rozining salametlik ehwali ailisidikilerni jiddiy endishige salmaqta], 
Radio Free Asia, 13 December 10.
    \146\ ``Kazakhstan Deports Uyghur Teacher,'' Radio Free Asia, 2 
June 11; Uyghur American Association, ``The World Must Demand 
Accountability for Deported Uyghur Refugee Ershidin Israel,'' 8 June 
11.
    \147\ ``Uyghur in Chinese Custody? '' Radio Free Asia, 31 May 11; 
Amnesty International, ``Document-China: Forcibly Returned Asylum 
Seeker at Risk,'' 16 June 11.
    \148\ ``Fabricated Evidence Used in Deportation,'' Radio Free Asia, 
15 June 11; ``Kazakhstan Deports Uyghur Teacher,'' Radio Free Asia, 2 
June 11; ``Uyghur in Chinese Custody? '' Radio Free Asia, 31 May 11.
    \149\ ``Fabricated Evidence Used in Deportation,'' Radio Free Asia, 
15 June 11.
    \150\ Human Rights Watch, ``China/Thailand: Account for Uighur Man 
Turned Over to Chinese Officials,'' 10 August 11; ``Uyghur Held in 
Thailand,'' Radio Free Asia, 8 August 08.
    \151\ ``Pakistan Deports Uyghurs,'' Radio Free Asia, 10 August 11.
    \152\ See, e.g., Sean Yoong, ``5 Uighur Chinese Held in Malaysia 
Risk Deportation,'' Associated Press, reprinted in Google, 22 August 
11; ``Malaysia Deports Uyghurs,'' Radio Free Asia, 23 August 11.
    \153\ UN Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by General Assembly 
resolution 39/46 of 10 December 84, art. 3(1).
    \154\ UN Convention Relating to the Status of Refugees, adopted by 
the UN General Assembly resolution 429(V) of 14 December 50, art. 
33(1). For a UNHCR statement noting that the principle of refoulement 
applies to asylum seekers as well as refugees and stating that the 
return of the Uyghur asylum seekers from Cambodia violates this 
principle, see ``UN Refugee Agency Deplores Forced Return of Uighur 
Asylum-Seekers From Cambodia,'' UN News Centre, 21 December 09.
    \155\ For more information, see CECC, 2008 Annual Report, 31 
October 08, 176-77; CECC, 2009 Annual Report, 10 October 09, 261-62; 
CECC, 2010 Annual Report, 10 October 10, 212-13.

                                 <all>

</pre></body></html>
